<html>
<title> - THE ECONOMIC AND EMPLOYMENT IMPACT OF THE ARTS AND MUSIC INDUSTRY</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



 
   THE ECONOMIC AND EMPLOYMENT IMPACT OF THE ARTS AND MUSIC INDUSTRY

=======================================================================


                                HEARING

                               before the

                              COMMITTEE ON
                          EDUCATION AND LABOR

                     U.S. House of Representatives

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

             HEARING HELD IN WASHINGTON, DC, MARCH 26, 2009

                               __________

                           Serial No. 111-12

                               __________

      Printed for the use of the Committee on Education and Labor


                       Available on the Internet:
      http://www.gpoaccess.gov/congress/house/education/index.html



                  U.S. GOVERNMENT PRINTING OFFICE
48-055                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office  Internet: bookstore.gov Phone: toll free (866) 512-1800 
Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 20402-0001



                    COMMITTEE ON EDUCATION AND LABOR

                  GEORGE MILLER, California, Chairman

Dale E. Kildee, Michigan, Vice       Howard P. ``Buck'' McKeon, 
    Chairman                             California,
Donald M. Payne, New Jersey            Senior Republican Member
Robert E. Andrews, New Jersey        Thomas E. Petri, Wisconsin
Robert C. ``Bobby'' Scott, Virginia  Peter Hoekstra, Michigan
Lynn C. Woolsey, California          Michael N. Castle, Delaware
Ruben Hinojosa, Texas                Mark E. Souder, Indiana
Carolyn McCarthy, New York           Vernon J. Ehlers, Michigan
John F. Tierney, Massachusetts       Judy Biggert, Illinois
Dennis J. Kucinich, Ohio             Todd Russell Platts, Pennsylvania
David Wu, Oregon                     Joe Wilson, South Carolina
Rush D. Holt, New Jersey             John Kline, Minnesota
Susan A. Davis, California           Cathy McMorris Rodgers, Washington
Raul M. Grijalva, Arizona            Tom Price, Georgia
Timothy H. Bishop, New York          Rob Bishop, Utah
Joe Sestak, Pennsylvania             Brett Guthrie, Kentucky
David Loebsack, Iowa                 Bill Cassidy, Louisiana
Mazie Hirono, Hawaii                 Tom McClintock, California
Jason Altmire, Pennsylvania          Duncan Hunter, California
Phil Hare, Illinois                  David P. Roe, Tennessee
Yvette D. Clarke, New York           Glenn Thompson, Pennsylvania
Joe Courtney, Connecticut
Carol Shea-Porter, New Hampshire
Marcia L. Fudge, Ohio
Jared Polis, Colorado
Paul Tonko, New York
Pedro R. Pierluisi, Puerto Rico
Gregorio Kilili Camacho Sablan,
    Northern Mariana Islands
Dina Titus, Nevada
[Vacant]

                     Mark Zuckerman, Staff Director
                Sally Stroup, Republican Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on March 26, 2009...................................     1

Statement of Members:
    Bishop, Hon. Rob, a Representative in Congress from the State 
      of Utah....................................................     5
    McKeon, Hon. Howard P. ``Buck,'' Senior Republican Member, 
      Committee on Education and Labor, prepared statement of....    55
    Miller, Hon. George, Chairman, Committee on Education and 
      Labor......................................................     1
        Prepared statement of....................................     2
        Additional submission:
            Hodes, Hon. Paul W., a Representative in Congress 
              from the State of New Hampshire, prepared statement 
              of.................................................    55
    Platts, Hon. Todd Russell, a Representative in Congress from 
      the State of Pennsylvania, submissions for the record:
        ``Arts Presenters Tracking Survey''......................    57
        Press release of the Association of Performing Arts 
          Presenters: ``Field at a Glance: Economic Impact on 
          Arts Presenting Activity and Attendance Stabilize While 
          Fundraising Is a Concern''.............................    62
    Slaughter, Hon. Louise McIntosh, a Representative in Congress 
      from the State of New York.................................     3
        Prepared statement of....................................     4

Statement of Witnesses:
    Bahr, Michael, education director, Utah Shakespearean 
      Festival...................................................    22
        Prepared statement of....................................    24
    Daly, Tim, actor and co-president, the Creative Coalition....    26
        Prepared statement of....................................    28
        Responses to questions for the record....................    65
    Florino, Joanne, executive director, Triad Foundation, Inc...    33
        Prepared statement of....................................    36
    Lynch, Robert L., president and CEO, Americans for the Arts..    12
        Prepared statement of....................................    14
        Responses to questions for the record....................    66
        Additional submissions:
            ``Folk and Traditional Arts Summary''................    62
            ``Impact of the Economic Downturn on the Music 
              Education Workforce and Concepts for a Positive 
              Response''.........................................    63
            ``Impact of the Economic Downturn on Museums''.......    64
    Ridge, Bruce, chairman, International Conference of Symphony 
      and Opera Musicians, American Federation of Musicians of 
      the United States and Canada (AFL-CIO).....................    30
        Prepared statement of....................................    32
    Spring, Michael, director, Miami-Dade County Department of 
      Cultural Affairs...........................................    18
        Prepared statement of....................................    19
    Thomasian, John, director, Center for Best Practices, 
      National Governors Association.............................    39
        Prepared statement of....................................    41

   THE ECONOMIC AND EMPLOYMENT IMPACT OF THE ARTS AND MUSIC INDUSTRY

                              ----------                              


                        Thursday, March 26, 2009

                     U.S. House of Representatives

                    Committee on Education and Labor

                             Washington, DC

                              ----------                              

    The committee met, pursuant to call, at 10:04 a.m., in room 
2175, Rayburn House Office Building, Hon. George Miller 
[chairman of the committee] presiding.
    Present: Representatives Miller, Kildee, Woolsey, Kucinich, 
Wu, Loebsack, Hirono, Hare, Clarke, Shea-Porter, Fudge, Polis, 
Tonko, Titus, Platts, and Guthrie.
    Staff Present: Tylease Alli, Hearing Clerk; Catherine 
Brown, Senior Education Policy Advisor; Alice Cain, Senior 
Education Policy Advisor (K-12); Jody Calemine, Labor Policy 
Deputy Director; Adrienne Dunbar, Education Policy Advisor; 
Curtis Ellis, Legislative Fellow, Education; Denise Forte, 
Director of Education Policy; David Hartzler, Systems 
Administrator; Fred Jones, Staff Assistant, Education; Jessica 
Kahanek, Press Assistant; Stephanie Moore, General Counsel; 
Alex Nock, Deputy Staff Director; Joe Novotny, Chief Clerk; 
Rachel Racusen, Communications Director; Melissa Salmanowitz, 
Press Secretary; Margaret Young, Staff Assistant, Education; 
Mark Zuckerman, Staff Director; Stephanie Arras, Minority 
Legislative Assistant; James Bergeron, Minority Deputy Director 
of Education and Human Services Policy; Robert Borden, Minority 
General Counsel; Cameron Coursen, Minority Assistant 
Communications Director; Susan Ross, Minority Director of 
Education and Human Services Policy; and Linda Stevens, 
Minority Chief Clerk/Assistant to the General Counsel.
    Chairman Miller. Morning. The Committee on Education and 
Labor will come to order, a quorum being present. And this 
morning we will begin our hearing on the arts and their 
importance to our country and to our economy by hearing from 
Congresswoman Louise Slaughter from New York, cochair of the 
Arts Caucus, a leader in the Arts Caucus for so many years; and 
Mr. Rob Bishop, a member of this committee from Utah.
    Congresswoman Slaughter, we are going to begin with you. 
You are recognized for 5 minutes with Mr. Bishop.
    [The statement of Mr. Miller follows:]

   Prepared Statement of Hon. George Miller, Chairman, Committee on 
                          Education and Labor

    Today we'll take a look at the impact of two important sectors of 
our economy--the arts and music--and how losses in these fields are 
impacting workers, families and communities across the country. Their 
contributions to our economy are frequently--and unfairly--overlooked.
    Our economy is in the worst crisis this nation has seen since the 
Great Depression. Workers are losing jobs at a rate of over 600,000 a 
month, families are losing income and benefits, and communities are 
suffering. The unemployment rate has hit a 25 year high.
    The non-profit arts and culture industries inject over $166 billion 
into our economy each year, according to a recent study by the 
Americans for the Arts. These sectors support 5.7 million jobs and over 
$104 billion in household income.
    In many places, like my home state of California, for example, the 
arts and music industries are vital engines for local economies--making 
up a large share of revenue and providing many employment 
opportunities.
    Spending by nonprofit arts and culture organizations provide work 
for more than just artists, curators, and musicians--they also directly 
support builders, plumbers, accountants, printers, and an array of 
other occupations.
    Workers in these fields are bearing a disproportionate brunt of 
this economic tsunami. According to research conducted by the National 
Endowment for the Arts, unemployment in the arts rose at a higher rate 
than the overall workforce in 2008.
    In fact, the unemployment rate for artists is double that of other 
professional workers. In the last quarter of 2008, the unemployment 
rate for artists grew by 64 percent--for a total of 129,000 displaced 
workers.
    This is playing out even in the most iconic art venues. In January, 
more than a dozen Broadway shows in New York closed and Carnegie Hall 
has cut its schedule down by 10 percent.
    The Philadelphia Art Museum announced it would have to eliminate 30 
positions. The Miami City Ballet has cut eight of its 53 dancers.
    Right here in DC, the Smithsonian has instilled a hiring freeze.
    And community theatres across the country, from Massachusetts to 
South Carolina to Baltimore to San Francisco, are closing their doors.
    Without the contributions and influence of the arts, our economy 
suffers greatly. Families suffer from layoffs, lost income and 
purchasing power.
    When we talk about arts and music, we're not just talking about 
artists and musicians. We're also talking about museums and galleries, 
symphonies and orchestras, community theatres and other non profits 
that shape our neighborhoods, towns and cities.
    This industry helps attract audiences, spurs local business 
development and stimulates learning in classrooms. Research shows that 
when students are exposed to arts and music, they perform better in 
other subjects.
    President Obama has made it clear that arts and music have a 
critical role to play in improving our workforce, our schools, and our 
quality of life.
    Arts, music and other cultural activities bring out our creativity 
and make us richer as individuals and communities.
    For these very reasons, President Obama's economic recovery plan 
included a $50 million investment to save jobs in the arts, supplement 
declines in charitable giving, and keep cultural activities thriving in 
communities.
    He isn't the first President to recognize the importance of 
promoting the arts economy in times of recession.
    President Roosevelt made art a focal point of his New Deal to lift 
this nation out of the Great Depression. His goal was to create 
programs that would help every American, no matter how poor, how 
hungry, how desperate.
    He created the Works Progress Administration. This included 
creating a government relief program for 10,000 unemployed artists, who 
helped create 100,000 easel paintings, 18,000 sculptures, 13,000 
prints, 4,000 murals and other works of art that have helped enrich our 
nation.
    When Harry Hopkins, who President Roosevelt tasked to run the 
program, was questioned about it, he responded ``Hell, they've got to 
eat just like other people.''
    Many of these murals can still be seen in schools, post offices and 
other government buildings. In my district, the Vacaville Post Office 
proudly displays ``Fruit Season,'' an oil painting by Emrich Nicholson.
    Today's hearing kicks off a series our committee will hold this 
Spring to examine how the arts and music can help us rebuild towns and 
cities and spur economic growth and also how they can help improve 
student learning.
    I look forward to hearing from our witnesses about how supporting 
the arts and music can help us build a stronger America. Thank you for 
being here.
                                 ______
                                 

  STATEMENT OF HON. LOUISE M. SLAUGHTER, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF NEW YORK

    Ms. Slaughter. Thank you very much Mr. Chairman. Good 
morning, everyone. All members of the committee, thank you very 
much for letting me come this morning.
    Chairman Miller. We need you to pull that microphone closer 
to you. Is it on? Bend it down a little bit.
    Ms. Slaughter. I won't go through that again. I will just 
say good morning, everybody.
    We are going to talk about an issue that is very near and 
dear to my heart this morning, the promotion of art, music and 
creative industries as an essential feature of our local, 
regional and national economies.
    Mr. Chairman, it is such a pleasure to work with you in 
supporting our creative industries and our creative workforce. 
And I very much appreciate all of your efforts. As the Nation 
continues to shift from an industrial manufacturing economy to 
one based on ideas and information, cities and States 
increasingly recognize that the arts and culture are important 
economic assets. They create a hub of economic activity that 
helps an area become an appealing place to live, to visit and 
to conduct business. The industries also create jobs, attract 
investments, generate tax revenues and stimulate local 
economies through tourism and urban renewal.
    And that is why both the National Governors Association and 
the U.S. Conference of Mayors agree that investing in arts and 
culture-related industries provide important economic benefits 
to local and regional economies. It is also no surprise that 
America's overall nonprofit arts and culture industry generates 
$166.2 billion in economic activity every single year. The 
national impact of this activity is significant. It supports 
5.7 million jobs and generates $29.6 billion in government 
revenue.
    Unfortunately, our creative industries have not been immune 
to the ongoing economic crisis. In fact, they have been 
particularly hard hit as corporate donations decrease, consumer 
spending on arts and cultural activities dwindle, organizations 
struggle to maintain their budgets, and arts and humanities 
funding decline as States struggle to manage their fiscal 
challenges.
    Indeed, a $7 million or 20 percent budget decrease in 
funding for the New York State Council on the Arts resulted in 
573 arts organizations throughout New York State receiving no 
funding. Moreover, the Memorial Art Gallery and the Eastman 
School of Music at the University of Rochester in my district 
have seen philanthropic donations from their endowments 
decrease by over 20 percent. And public broadcasters in my 
district and across the country are struggling to maintain 
exceptional access to the arts in the wake of budget cuts.
    Individuals who work in the creative industries are 
suffering. A report released this month by the National 
Endowment for the Arts found that unemployment rates for 
artists have risen more rapidly than for U.S. workers as a 
whole. A total of 129,000 artists were unemployed in the fourth 
quarter of 2008, an increase of 50,000 people, or 63 percent, 
from 1 year earlier. The report also found that the job market 
for artists is unlikely to improve until long after the U.S. 
economy starts to recover.
    Creative workers who are not losing their jobs are 
nonetheless still suffering. For example, the Strong National 
Museum of Play in Rochester has reduced its share of health 
insurance that they can provide their employees. And the 
Philharmonic Orchestra has been forced to reduce hours for 
part-time workers and eliminate some benefits for all of their 
staff.
    Clearly, now more than ever, we need to continue robust 
support for our Nation's creative industries and workforce. 
They pay their way. Supporting the millions of people employed 
in the creative industries as well as the organizations, 
businesses, and artistic institutions which contribute to local 
and regional economies is simply an imperative this Congress 
must not cast aside.
    In addition to helping our workforce, artistic 
organizations, and cities survive this economic downturn, we 
should use this time as an opportunity to push for greater 
investment in arts education to prepare our children for the 
creative, dynamic, and innovative economy they will enter. 
Employers today in America and abroad are looking for 
imaginative and vibrant young men and women to fill their 
rosters.
    Learning through the arts reinforces crucial academic 
skills in reading, language arts, and math. Just as important, 
learning through the arts gives young people the skills they 
need to analyze and synthesize information and to solve complex 
problems. Educating children early and continuously in the arts 
will prepare them for work in today's innovative and creative 
post-industrial society.
    Again, I thank you for the opportunity to testify before 
you today and for holding this hearing at such a crucial 
moment. I look forward to working with you, Mr. Chairman, and 
Mr. McKeon and others on the committee as well as everybody 
else in the House to help support our creative workforce and 
industries, and I thank you very much.
    [The statement of Ms. Slaughter follows:]

Prepared Statement of Hon. Louise McIntosh Slaughter, a Representative 
                 in Congress From the State of New York

    Good morning. I would like to thank you, Chairman Miller and 
Ranking Member McKeon for the opportunity to testify before the 
Committee today on an issue that is near and dear to my heart--the 
promotion of art, music and creative industries as essential features 
of our local, regional, and national economies. Mr. Chairman, it is a 
pleasure to work with you in supporting our creative industries and our 
creative workforce, and I very much appreciate all of your efforts.
    As the nation continues to shift from an industrial manufacturing 
economy to one based on ideas and information, cities and states 
increasingly recognize that the arts and culture are important economic 
assets. They create a hub of economic activity that helps an area 
become an appealing place to live, visit and conduct business. These 
industries also create jobs, attract investments, generate tax 
revenues, and stimulate local economies through tourism and urban 
renewal. That is why both the National Governor's Association and the 
U.S. Conference of Mayors agree that investing in arts and culture-
related industries provide important economic benefits to local and 
regional economies. It is also no surprise that America's overall 
nonprofit arts and culture industry generates $166.2 billion economic 
activity every year. The national impact of this activity is 
significant, supporting 5.7 million jobs and generating $29.6 billion 
in government revenue.
    Unfortunately, our creative industries have not been immune to the 
ongoing economic crisis; in fact, they have been particularly hard hit 
as corporate donations decrease, consumer spending on arts and culture 
activities dwindle, organizations struggle to maintain their budgets, 
and arts and humanities funding decline as states struggle to manage 
their fiscal challenges. Indeed, a seven million dollar, or twenty 
percent budget decrease, in funding for The New York State Council on 
the Arts resulted in 573 arts organizations throughout New York State 
receiving no funding. Thirty-four of these organizations are in my 
congressional district. Moreover, the Memorial Art Gallery and the 
Eastman School of Music at the University of Rochester have seen 
philanthropic donations and their endowments decrease by over twenty 
percent. And public broadcasters in my district and across the country 
are struggling to maintain exceptional access to the arts in the wake 
of budget cuts.
    Individuals working in the creative industries are suffering, too. 
A report released this month by the National Endowment for the Arts 
found that ``unemployment rates for artists have risen more rapidly 
than for U.S. workers as a whole.'' A total of 129,000 artists were 
unemployed in the fourth quarter of 2008, an increase of fifty thousand 
people, or sixty-three percent, from one year earlier. This report also 
found that the job market for artists is unlikely to improve until long 
after the U.S. economy starts to recover. Creative workers who are not 
losing their jobs are nevertheless still suffering. For example, the 
Strong National Museum of Play in Rochester, NY has reduced their share 
of health insurance they can provide their employees. And the Rochester 
Philharmonic Orchestra has been forced to reduce hours for part time 
workers and eliminate some benefits for all of their staff.
    Clearly, now more than ever we need to continue robust support for 
our nation's creative industries and workforce. Supporting the millions 
of people employed in the creative industries as well as the 
organizations, businesses and artistic institutions which contribute to 
local and regional economies is simply an imperative this Congress 
cannot cast aside.
    In addition to helping our workforce, artistic organizations and 
cities survive this economic downturn, we should use this time as an 
opportunity to push for greater investment in arts education to prepare 
our children for the creative, dynamic, and innovative economy they 
will enter. Employers today in America and abroad are looking for 
imaginative and vibrant young men and women to fill their rosters. 
Learning through the arts reinforces crucial academic skills in 
reading, language arts, and math. But just as important, learning 
through the arts gives young people the skills they need to analyze and 
synthesize information, and to solve complex problems. Educating 
children early and continuously in the arts will prepare them for the 
work in today's innovative and creative postindustrial society.
    Again, I thank you for the opportunity to testify before you today, 
and for holding this hearing at such a critical moment. I look forward 
to working with you, Mr. Chairman and Mr. McKeon, as well as the rest 
of the Committee, to help support our creative workforce and 
industries.
                                 ______
                                 
    Chairman Miller. Thank you very much.
    Congressman Bishop.

STATEMENT OF HON. ROB BISHOP, A REPRESENTATIVE IN CONGRESS FROM 
                       THE STATE OF UTAH

    Mr. Bishop of Utah. Well, I appreciate the opportunity of 
being here. This is a somewhat unusual position for me. I have 
never been on this side of the dais. I realize, though, that--
--
    Chairman Miller. We have hundreds of questions for you.
    Mr. Bishop. I realize, never before have I had such 
uninterrupted time nor have I spoken this early in a committee 
hearing before. So this is kind of neat. In essence, though, I 
am testifying to myself so if I start giggling, I told myself a 
joke, and I am not going to share it with the rest of you.
    I have had a long tradition actually of being involved in 
arts, especially in the State of Utah. I was the House sponsor 
of what we passed, a percent for the arts, which was 
controversial at the time, but it actually added 1 percent to 
the buildings, of every State building, to do, simply for art 
additions to that.
    I recognize, clearly, that even if you are the not 
musically inclined, everyone should learn to play the piano, 
simply because the personal decision it takes to try and learn 
how to do the fingering and to learn how to count has a 
remarkable achievement and a life skill. All kids should have 
auditoriums in their school, so they are simply taught how to 
be an audience.
    When I was in school, even though I was not teaching in 
drama, I was involved with the Thespians program. I conducted a 
play every year for the drama teacher to help spread out the 
work. I accompanied in both schools that I taught for a couple 
of the plays. I met my wife in a community theater, where she 
was the princess and I was the prince, a role that she regrets 
ever having accepted.
    Then, later, I became a member of the board of our 
community theater, and I was also chairman of the board. And I 
was there as the community theater decided to cut their ties 
with government spending and go out on their own and be a 
private community interest. Without that safety net of 
government spending that was coming to them, it was a, I 
thought, it was a very bold move, but it worked because we 
expanded our audience, and we simply found that charitable 
contributions were a way of continuing the product of a 
smaller, regional type of theater experience.
    There are some things though that government simply cannot 
do, regardless of the approach to it. Whenever the government 
gets involved in art funding, there are simply always going to 
be winners and losers. It is a subjective criteria. It will 
always happen that way. Some people will get something; some 
won't.
    What I found in running my small community theater and then 
a private theater organization was, when we tried to get some 
kind of national grant, the paperwork involved and the strings 
attached basically weren't worth it. Even when I went to the 
State of Utah with the Utah Arts Council, which was a much 
easier group with which to work, there was always the debate 
going on amongst those who gave out the money: Do we spend a 
lot of money on a few institutions to make them really good, or 
do you spread the wealth around? It doesn't matter what the 
decision is; there will always be some winners, and there will 
always be some losers, because there is no such thing as 
objective criteria on how to spend money on art. It is always 
subjective in some particular way.
    I think the stimulus bill that we passed illustrates how 
that works. We gave in the stimulus package a whole lot of 
money for art programs. However, we did not have the time to 
develop a new criteria. So all the money went to programs that 
already had existing grants given to them. We didn't actually 
expand the pie. We didn't actually spend out to more and more 
institutions to try and help different groups. A few people got 
healthier. There were bigger winners. And, once again, there 
were losers. It will always be the situation that takes place 
in that kind of environment.
    That is why, when the administration talks about cutting 
charitable deductions, that is such a threatening situation, 
especially for smaller organizations and more rural 
organizations who rely specifically on those charitable 
donations to survive. And that is one of the things that is 
very fearful, especially because, when there are charitable 
contributions, there becomes an emotional bond, an emotional 
attachment that no government-sponsored program can ever 
replicate or ever match.
    It is simply a matter of, if there is an entitlement, you 
are getting Federal Government money in some way. There is an 
entitlement mentality that you all recognize in the letters you 
receive from constituents who believe that they are entitled to 
something. That doesn't happen when you actually have 
charitable contributions going forward, back and forth.
    There is in a charitable contribution an exercise in 
generosity that builds a relationship that is so important, 
especially for smaller arts organizations and for rural arts 
organizations. The giver gives because he recognizes there is a 
worth in that gift and has a desire to help. At the same time, 
the receiver, at least historically, has given something back, 
if nothing less or nothing more than gratitude. But there is 
always a give-and-take relationship.
    That is the bond that is development. That is why Christ 
said, you should give of yourself to the poor. He didn't say 
take a knife and mug the first traveller that comes along and 
take his money to give to the poor, because there is a 
relationship that is built when one gives and one receives back 
and forth.
    There is a sense of worth between the two institutions. The 
giver cares about the gift. He cares about the functioning of 
that institution. He cares about how that institution will 
operate. And the receiver, on the other hand, also has an 
increased significance with his stewardship of that particular 
gift. And that is why charitable contributions are so 
essential.
    When I was running, when I was on the board and chairman of 
the board of our small theater group, it was essential that we 
had charitable contributions. And that is why what we should be 
doing in this country, especially in this environment, is 
trying to encourage charitable contributions; not discourage 
them, not in any way try to diminish them for whatever other 
tax purpose that may be gained.
    That, by the way, is the same concept we have in our 
campaigns. We don't go out anymore trying to find a few big 
donors to fund campaigns. Instead, we get small contributions 
from a lot of people. And you ought to realize that when you 
ask somebody from a campaign, if they give you a $25 bill, that 
may not fund a whole lot, but you build a relationship with 
that individual. There is a bond that is developed. It is a 
strengthening tie, and that is why charitable contributions are 
so essential.
    And the one thing we need to do is do those types of 
actions that encourage charitable contributions. If we don't, 
there are going to be more winners and more losers. And those 
losers, unfortunately, are going to be more smaller 
organizations; they are going to be more rural organizations, 
where we actually need to expand the arts and what it can be.
    Chairman Miller. See how tough it is to be on that side of 
the table? Now you can jump up and come to this side of the 
table.
    Mr. Bishop. Can I ask myself a question then?
    Chairman Miller. On your own time.
    Mr. Bishop. I apologize. I was a minute and a half over. I 
didn't look there. I apologize for that, Mr. Chairman.
    Chairman Miller. Thank you very much, both of you, for your 
testimony and for your support. We look forward to continuing 
to work with you. Thank you so much.
    We are going to now ask our panel of witnesses to come 
forward, and I am going to recognize Mr. Lynch, Mr. Spring, Mr. 
Bahr, Mr. Daly, Mr. Ridge, Ms. Florino, and Mr. Thomasian. If 
you would come forward, please.
    The Chair is going to recognize himself for the purpose of 
making an opening statement. I was waiting for my Republican 
counterpart to show. Mr. Guthrie is here, and I will begin.
    Today we will look at the impact of two important sectors 
of our economy, the arts and music, and how losses in these 
fields are impacting workers, families, and communities across 
the country. Their contributions to our economy are frequently 
and unfairly overlooked. Our economy is in the worst crisis 
this Nation has seen since the Great Depression. Workers are 
losing jobs at a rate of over 600,000 a month. Families are 
losing income and benefits, and communities are suffering.
    The unemployment rate has hit a 25-year high. The nonprofit 
arts and cultural industries inject over $166 billion into our 
economy each year, according to recent studies by Americans For 
the Arts. These sectors support 5.7 million jobs and over $104 
billion in household income. In many places, like my home State 
of California for example, the arts and music industries are 
vital engines of local economies, making up large shares of 
revenue and providing many employment opportunities.
    Spending by nonprofit arts and cultural organizations 
provides work for more than just artists, curators and 
musicians. They also directly support builders, plumbers 
accountants, printers and an array of other occupations. 
Workers in these fields are bearing a disproportionate brunt of 
this economic tsunami. According to research conducted by the 
National Endowment for the Arts, unemployment in the arts rose 
at a higher rate than the overall workforce in 2008. In fact, 
the unemployment rate for artists doubled that of other 
professional workers. In the last quarter of 2008, the 
unemployment rate by artists grew by 64 percent for a total of 
129,000 displaced workers.
    This is playing out even in the most iconic art venues. In 
January, more than a dozen Broadway shows in New York closed, 
and Carnegie Hall has cut its schedule down by 10 percent. The 
Philadelphia Art Museum announced it would eliminate 30 
positions. The Miami City Ballet has cut 53 of its dancers. 
Right here in D.C., the Smithsonian has instilled a hiring 
freeze. The community theaters across the country, from 
Massachusetts to South Carolina, from Baltimore to San 
Francisco, are closing their doors.
    Without the contributions and influence of the arts, our 
economy suffers greatly. Families suffer from layoffs, lost 
income, and purchasing power. When we talk about the arts and 
music, we are not just talking about artists and musicians. We 
are also talking about museums and galleries and symphonies and 
orchestras, community theaters and nonprofits that shape our 
neighborhoods, our towns and our cities. This industry helps 
attract audiences, spurs local business development, and 
stimulates learning in classrooms.
    Research shows that when students are exposed to arts and 
music, they perform better in other subjects. President Obama 
has made it clear that the arts and music have a critical role 
in improving our workforce, our schools and our quality of 
life. Arts and music and other cultural activities bring out 
our creativity and make us richer as individuals and 
communities. For this very reason, President Obama's economic 
recovery plan included $50 million in investment to save jobs 
in the arts and supplement declines in charitable giving and 
keep cultural activities thriving in the communities.
    He isn't the first President to recognize the importance of 
promoting the arts, and the arts economy, in times of 
recession. President Roosevelt made arts a focal point of his 
New Deal to lift the Nation out of the Great Depression. His 
goal was to create programs that would help every American, no 
matter how poor, how hungry or how desperate. He created the 
WPA administration. This included creating government relief 
programs for 10,000 unemployed artists, who helped create 
100,000 easel paintings, 18,000 sculptures, 13,000 prints, and 
4,000 murals and other works of are that have helped enrich our 
Nation. When Harry Hopkins, who President Roosevelt tasked to 
run the program, was questioned about it, he responded, ``hell 
they have to eat just like any other people.''
    Many of these murals can still be seen in schools, post 
offices and other government buildings. In my district, the 
Vacaville Post Office proudly displays ``Fruit Season,'' an oil 
painting by Emrich Nicholson, portraying the agricultural 
culture of that time in that community.
    Today's hearing kicks off a series our committee will be 
holding this spring to examine how arts and music can help 
rebuild our towns and cities, spur economic growth, and how 
they can help improve student learning. I look forward to 
hearing from our witnesses about how supporting the arts and 
music can help us build a stronger America. And thank you very 
much for being here.
    Now I would like to yield to Mr. Guthrie for the purposes 
of making an opening statement.
    Mr. Guthrie. Thank you, Mr. Chairman.
    And good morning, Mr. Daly. I spent a lot of time, when I 
should have been studying, watching you on television when I 
was in college.
    Mr. Daly. Sorry about that.
    Mr. Guthrie. You had a very great show, and I enjoyed 
watching it very much.
    One of the benefits of living in a free society is that its 
citizens are free to create. This freedom has given birth to 
art forms that Americans and people around the world have 
enjoyed for decades. Take music, blues, country, jazz, rock 'n' 
roll, all of them come from America. Then there is Broadway and 
Hollywood. For more than a century, American films, plays, 
musicals and TV shows have been loved and respected the world 
over.
    Mr. Chairman, we should be proud of our artists, but not 
just for their creative achievements. After all, they are in 
show business. It is a real industry that has ups and downs 
like any other. And what helps support this industry, in large 
measure, nonprofit and charitable foundations. When you look 
beyond the superstars with their mansions and their millions, 
you find that many talented working artists across the country 
are supported this way.
    Experts say that the $43 billion that foundations give out 
help generate more than $500 billion in household income. It 
also contributed some $145 billion in tax revenues. That is 
music to a lot of people's ears, especially in these times.
    But it seems President Obama wants to stop the music and 
send the band home. The Obama administration's new budget will 
limit charitable deductions in the Tax Code. These tax 
deductions allow, even encourage, people to give to foundations 
and charities. Whether they contribute $25 or $25 million, a 
deduction applies to them. And foundations need these 
donations.
    Usually individual contributions are often their sole 
source of income. So if you limit charitable deductions, you 
limit support of the arts and other worthy causes. It is that 
simple.
    Don't take my word for it. Ask Martin Feldstein. He is an 
economics professor from Harvard. He wrote an op-ed piece in 
The Washington Post yesterday about this very subject. In his 
article Feldstein says, President Obama's proposal would 
effectively transfer $7 billion a year from the Nation's 
charitable institutions to the Federal Government. This 
transfer, Feldstein, says would basically be a nationwide tax 
on charities.
    After speaking with Professor Feldstein, go talk to the 
Association of Performing Arts Presenters. In a report out this 
month, the association says that more than half of the 
performing groups with theaters and facilities have failed to 
meet their fundraising goals.
    As the Obama administration tinkers with the Tax Code, it 
is important that we, as Members of Congress, understand how it 
affects nonprofits and foundations. Whether supporting a local 
theater group, homeless shelter, or children's hospital, 
nonprofits and charities play a starring role in American life. 
We should create policies that best increase philanthropy and 
private resources available for charities, including support of 
the arts.
    Finally, we should highlight how private charities are 
independent, effective, and innovative, just like American 
artists, including the ones with us today. And I have an 
American artist at home. My 11-year-old is active in our 
children's youth theater and is going to be in Charlotte's Web 
next month. So that is an advertisement, if you are going to be 
in Bowling Green, Kentucky, to come see them. It has really 
made a difference. It is a place where she fits in. Where other 
kids play sports and TV, she fits in on the stage and has 
really enjoyed it.
    Thank you, Chairman Miller, and I yield back.
    Chairman Miller. Thank you.
    Thank you very much. Again, welcome to the committee. Thank 
you for giving us your time and your expertise.
    I am going to introduce you quickly here, and then we are 
going to begin with your testimony.
    Mr. Lynch, we are going to begin with you. When we do, when 
you begin testifying, a green light will go on in front of you. 
Unlike Mr. Bishop, you will see the red light come on. It is 
commanded that you will see the red light come on. At that 
point, your time will expire. There will be an orange light 
which will tell you, you have about a minute. Five minutes is a 
very short period of time, so organize your thoughts well. But 
we want you to be able to be comfortable in delivering your 
testimony in a manner you think is coherent.
    And then we will have time for questions. This hearing will 
end by 12:00. My concern is that we are into the amendment 
process on the floor, and I am not quite sure when we will be 
asked to go to the floor for votes. And depending on those 
circumstances, if it is a long series of votes, which it may 
be, hopefully, we will be done before then. But if not, we will 
not hold you until after those votes. That is something 
witnesses should not have to endure, is when we leave the room 
for an hour, and you have to stay here.
    Thank you in advance. With all of those conditions, we 
really welcome your testimony.
    First, let me begin by introducing Robert L. Lynch, who is 
the president and CEO of Americans for the Arts, a national 
organization dedicated to advancing the arts and arts 
education. Under his 24 years of leadership, the organization 
has grown over 50 times its original size. In 2005, Mr. Lynch 
created Americans for the Arts Action Fund to engage citizens 
in advocating arts-friendly public policies. Mr. Lynch plays 
piano, mandolin, guitar and lives in Washington, D.C.
    Michael Spring is the director of Miami-Dade County 
Department of Cultural Affairs. Michael Spring serves as 
director of that organization. For over 25 years, he has served 
at the department. He has helped build Miami-Dade County's 
cultural community into more than $922 million annual industry 
comprised of more than 1,000 nonprofit cultural groups and 
thousands of artists. Mr. Spring represents the department in 
numerous culture and civic communities, and he continues to 
paint and develop his interest in visual arts.
    Michael Bahr is education director of the Utah 
Shakespearean Festival, where he has created numerous outreach 
programs for students. As a teacher in theater arts in Utah and 
California schools, Mr. Bahr developed educational theater 
programs in grade schools, junior highs and high schools. He 
received many awards for his work, including a 2-year 
nomination for the Huntsman Award and Outstanding Teacher of 
the Year.
    Tim Daly serves as copresident of The Creative Coalition, a 
nonprofit, nonpartisan social and political advocacy 
organization for the entertainment industry. He is a veteran 
actor and has played a variety of roles in film and television. 
Mr. Daly received an Emmy nomination for Outstanding Guest 
Actor in a Drama Series for his role as J.T. in the HBO series 
``The Sopranos.'' He currently stars in season two of ABC's 
Private Practice and is also producing a documentary film, 
called ``PoliWood,'' which takes an in-depth look at the 2008 
Presidential election.
    Bruce Ridge is chairman of the International Conference of 
Symphony and Opera Musicians, a conference of the American 
Federation of Musicians, and a member of the North Carolina 
Symphony, where he plays a double bass. Nationally, Mr. Ridge 
leads the conference's work in arts and advocacy, improving 
labor relations throughout the field. He has spoken around the 
country to orchestral musicians and arts administrators about 
increasing orchestra services to their communities through 
enhancing business development and strengthening arts 
education.
    Joanne Florino has been executive director of the Triad 
Foundation of Ithaca, New York, since April 2003. The Triad 
Foundation makes over $9 million in grants each year, including 
grants in the arts in locations such as Charlotte, North 
Carolina; Tampa, Florida; and Ithaca, New York. Prior to 
working at Triad, Ms. Florino worked as the executive director 
of the Parks Foundation where she administered grant-making 
programs primarily focussed in higher education.
    John Thomasian directs the National Governors Association 
Center of Best Practices, which helps Governors and their 
policy advisors develop and implement innovative solutions to 
governance and policy changes. The National Governors 
Association Center helps Governors and their staffs develop 
cutting-edge solutions to stay ahead of potential problems. As 
the center director, Mr. Thomasian oversees all there is of 
domestic policy with particular areas of expertise including 
energy, health care reform, homeland security infrastructure, 
the economy, and the arts.
    With that, let me, again, welcome you.
    Mr. Lynch, we are going to begin with you. Thank you.

STATEMENT OF ROBERT L. LYNCH, PRESIDENT AND CEO, AMERICANS FOR 
                            THE ARTS

    Mr. Lynch. Well, I want to thank you very much, Chairman 
Miller, for this opportunity, and also, I want to thank so many 
members of the committee for being here. It is very exciting to 
have this kind of a turnout.
    The opportunity here is for us to talk about the broad 
spectrum of the arts, visual art, performing art, music, 
theater, dance, the creative industries as a whole. And I want 
to just--I have written testimony that I have sent forward. I 
simply want to say a few words, a few remarks that relate to 
that.
    My remarks are basically that I have great news, and I have 
tough news. And you have heard some of both already as we have 
gone forward. Louise Slaughter, the great leader of our 
Congressional Arts Caucus, has been very articulate on talking 
about both the problems that the arts face and the 
opportunities here.
    The great news is this: We know that there are 686,000 
organizations out there, for-profit and nonprofit 
organizations, in the arts. We know that they employ 2.8 
million people. That is more than people realize. Right there, 
it is interesting to look at: 4.2 percent of all businesses in 
America, and over 2 percent of all the jobs in America. And it 
is a growth industry as a whole.
    The figures from 2008 to 2009, there is a 10 percent growth 
in the numbers of these organizations. When we take a look at 
these creative industries, if I were to take a look at 
Congressman Miller's district, there are 1,292 businesses, arts 
businesses, in that district, employing 3,983 people. And 
simply looking at the committee members, each of you has a 
packet with those figures.
    But I look at Congresswoman Clarke's district, 1,287 
businesses employing 4,000 people. Congresswoman Fudge's 
district, 1,416 businesses employing 9,320 people. This is big. 
This is important. This is good news for the arts. And it is 
the kind of news that the United States Conference of Mayors 
thought was so important that they, when they came forward with 
their 10-point plan for a better America to the current 
administration, they included the arts as one of the 10 points.
    Another thing that is very important for this committee, 
arts education. Arts education is at the core of creating those 
audiences and helping to create the actual artists themselves. 
And the Conference Board recently, the organization that all of 
business goes to for its information, came forward with a study 
that said that the businesses in the 21st Century, number one 
thing they want is creativity, creative 21st Century workers. 
But what was even more interesting is that they thought that, 
along with the superintendents of schools and other leaders in 
education, that the top of the list for creating creativity was 
having arts education in the schools. This is from the business 
community, not from Americans For the Arts. And I think that is 
very significant.
    If I turn to the not-for-profit community, 100,000 of those 
686,000 businesses are not-for-profit businesses. Museums, 
theaters and dance companies in every corner of the country, in 
every one of your districts, 5.7 million jobs come out either 
directly or indirectly out of that nonprofit business. You 
heard Congresswoman Slaughter mention it as a $166 billion 
economic impact, returning $29 billion to Federal, State and 
local tax coffers.
    One thing that I thought you here in this committee should 
realize is that that growth industry largely was helped in 1965 
when you launched the current infrastructure of support in the 
arts in America today, the National Endowment for the Arts 
coming out of this committee, the State structure or State arts 
agencies and the local arts agencies across the country. The 
infrastructure of support as we know it today. What I think is 
exciting there is that there is proof with those figures that 
the arts mean business, big business in this country.
    Now for some tough news, 10,000 of those organizations are 
at risk in America; 10 percent of those organizations are at 
risk of going out of business entirely; 260,000 jobs would be 
lost if that were the case. The other 90 percent are having 
trouble as well, and there is a job loss there as well, but 
those figures get even bigger, bigger than we would want to 
actually look at as a loss in this country.
    You have heard already that artists are unemployed 
currently at twice the rate of other professionals, the 
National Endowment for the Arts. Where does the money for the 
arts come from in America? We have talked about a number of 
things here. But it is basically pretty simple. Those 100,000 
nonprofit organizations get their money from three sources. 
Half their money comes from earned income. That means the 
ticket buyer, the person who attends an event is, important. 
And disposable income is down. So that is being hurt. Forty 
percent comes from the private sector, donations, corporate 
individual foundation. With portfolios down, that money is 
hurt. The last 10 percent comes from government, most of it 
from local government and then State government and a tiny 
piece from the Federal Government. But that Federal Government 
piece has been the part that has leveraged all the rest over 
the last half century. So I think that it is important to 
understand that dynamic and then look at all of--I am not going 
to read the list of hundreds of organizations that I have here 
that are actually going out of business across the country or 
at risk, but I will submit that as part of the testimony.
    Chairman Miller. Thank you.
    Mr. Lynch. What I want to say is, there is hope on the 
horizon. And you have given the hope. The omnibus bill, $10 
million more for the National Endowment for the Arts; the 
economic recovery bill, $50 million more going out through that 
mechanism across the country. That hope is important. And what 
it says to me is that the arts are important; arts jobs and 
arts and economic impact are important and bigger than most 
people realize. The arts in America are at risk. And I ask the 
committee to help others understand that the arts are not part 
of the problem but part of the solution to America's problems. 
Thank you.
    [The statement of Mr. Lynch follows:]

        Prepared Statement of Robert L. Lynch, President & CEO,
                         Americans for the Arts

    Americans for the Arts is pleased to submit written testimony to 
the House Education & Labor Committee supporting the arts and cultural 
workforce. I am grateful to Chairman George Miller and Ranking Member 
Buck McKeon for providing Americans for the Arts the opportunity to 
testify today.
    Before I begin with my statement today, I would like to 
congratulate Chairman Miller on the House passage of the GIVE Act last 
week. National service programs, when partnered with local arts 
organizations and art-related projects have a proven record of filling 
un-met needs. Together, national service and the arts create a powerful 
force, demonstrating the ability for Americans to take initiative, tap 
into their creative forces, and work together to address a broad array 
of community needs in our country. The GIVE Act legislation included a 
provision strengthening arts activities through national service--so 
thank you for that support Mr. Chairman.
Arts at Risk Today
    Americans for the Arts estimates that 10,000 of the nation's 
nonprofit arts and culture organizations are at risk of closing their 
doors in 2009, a loss of as many as 260,000 jobs.
    Last week, the Wall Street Journal ran an important article on this 
topic, ``Arts Groups Lose Out in Fight for Funds,'' (3/18/09) which 
described the challenges that arts organizations are facing in this 
current economy:
    ``Some cultural institutions have already folded. The Baltimore 
Opera's board voted to liquidate the organization last week. Brandeis 
University officials are mired in controversy over a decision to sell 
parts of its Rose Art Museum collection. In January, the Minnesota 
Museum of American Art in St. Paul, which had existed in various forms 
since 1927, closed indefinitely. The Milwaukee Shakespeare theater 
company shuttered in October, after its main funder, a local 
foundation, dropped support.
    ``Many arts organizations are tightening their belts. In New York, 
where Wall Street banks have collapsed, the Metropolitan Museum of Art 
just cut 74 positions and warned it could slash another 10% of its work 
force by July. In Detroit, where General Motors Corp. and Chrysler LLC 
are on the verge of bankruptcy, the Detroit Institute of Arts reduced 
20% of its staff as part of a $6 million budget cut, and the Detroit 
Opera canceled a spring production.''
    Two paragraphs in just one news story, the likes of which is 
running every day somewhere in America. Arts organizations, however, 
are not fading passively. While reducing staff and length of seasons, 
they are also providing more ``pay what you can'' opportunities.
    In Maryland, arts organizations are providing free admission to 
laid-off and furloughed state workers. In New Jersey, the opera is 
using vacant space at a retirement home for rehearsals and allowing 
residents to watch. In St. Louis, arts organizations are moving in to 
shopping malls to keep the property full of energy and help keep local 
merchants in business. Even in down economic times, arts organizations 
are working to strengthen their communities.
    A monthly tracking survey of major performing arts centers 
conducted by AMS Planning & Research Corp of Fairfield, CT shows that a 
sample of major performing arts centers went from only 16% being behind 
on meeting their foundation contribution target in November 2008 to 58% 
of the centers falling behind in February 2009. The same drop was found 
in corporate support, 38% of the centers were behind in corporate 
support in November, and now 60% of these institutions are behind in 
corporate donations.
    The most recent federal statistics are from the National Endowment 
for the Arts (NEA) itself. In report released earlier this month, the 
NEA found that artists are unemployed at twice the rate of professional 
workers--6% vs. 3% for all professionals. The U.S. Census data shows 
that unemployment rates for artists have risen more rapidly than for 
U.S. workers as a whole.
Downward Pressure on Business Support to the Arts
    In an effort to achieve more measurable results from their 
philanthropy, more businesses are reducing their charitable focus to a 
single funding category, such as health or education. This single-focus 
giving rarely focuses on the arts.
    The arts have been steadily losing market share of total business 
support, according to longitudinal research conducted by the Conference 
Board. While much of this can be attributed to a huge increase of in-
kind contributions of medications by drug companies, further analysis 
still demonstrates that the arts' ``piece of the pie'' is getting 
smaller.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

The Economic Recovery Bill
    Last month, with the passage of the American Recovery and 
Reinvestment Act, a special $50 million was directed to the National 
Endowment for the Arts to preserve and recover jobs in the arts. 
Thanks, to Congressional Arts Caucus Co-Chair Louise Slaughter and 
several others, the arts workforce has been thrown a much needed 
lifeline. It is hard for me to put into the proper context how grateful 
the creative community is that our sometimes overlooked contribution to 
the nation's workforce was recognized by the new Administration and 
Congress.
    The NEA, more so than many federal agencies, has the infrastructure 
and dexterity to expedite relief to workers immediately, in accordance 
with the Obama Administration's wishes that that these expenditures are 
of a quick and stimulative nature. And these are real jobs--jobs that 
cannot be outsourced. Creating the ability to extend production seasons 
means the employment of not just performers but of the entire apparatus 
that it takes to execute high quality performances. These jobs are 
created in the United States and stay in the United States. By keeping 
those artists, artisans, production crews, educational programs, and 
local businesses working, you are relieving the burden on local 
governments as tax revenue keeps coming to the public coffers and eases 
pressure on the social safety net. This, of course, is like any other 
industry. NEA funding is directly related to that effort.
Economic Impact and Reach of the Arts
    In my travels across the country, business and government leaders 
often talk to me about the challenges of funding the arts and other 
community needs amid shrinking resources. They worry about jobs and the 
economic performance of their community. How well are they competing in 
the high-stakes race to attract new businesses? Is their region a 
magnet for a skilled and creative workforce? I am continually impressed 
by the commitment to doing what is best for their constituents and to 
improving quality of life for all. The findings from our 2007 study, 
Arts & Economic Prosperity III, send a clear and welcome message: 
leaders who care about community and economic development can feel good 
about choosing to invest in the arts.
    Some of the members of our panel will speak about what most of us 
share as the intrinsic benefits of the arts. Especially in these 
uncertain times, the arts have the power to inspire, create outlets for 
untapped creativity and expression, and engage in a shared civic 
discourse. I also realize that, for some policy makers, the human 
enrichment factor of the arts is not always enough to motivate spending 
taxpayers' money on the arts. To that point, I would add that, the arts 
mean business.
Arts & Economic Prosperity Study
    Our 2007 economic impact study reveals that America's nonprofit 
arts industry generates $166.2 billion in economic activity annually--
supporting 5.7 million full-time equivalent jobs, $104 billion in 
household income, and actually generating $29.6 billion of tax revenue 
back to federal, state, and local governments combined. Between 2000 
and 2005, these figures represented a 24 percent increase in economic 
activity and growth of 850,000 jobs.
    The numbers are irrefutable; arts and culture mean business. 
Federal funding of arts and culture represents up to a 9 to 1 return on 
investment. $1.4 billion in total funding returns $12.6 billion to the 
federal coffers.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    No niche industry, the nonprofit arts and culture industry make up 
1.01% of the U.S. workforce. This may seem like a small percentage 
until you realize that it exceeds those working in the legal and 
accounting professions, or police and firefighting, for example. 
Elementary school teachers at 1.14% are one of the few sectors that 
surpass this number in terms of jobs supported by any sector.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The Arts & Economic Prosperity study has more good news for 
business leaders. Arts organizations--businesses in their own right--
leverage additional event-related spending by their audiences that pump 
vital revenue into restaurants, hotels, retail stores, and other local 
businesses. When patrons attend a performing arts event, for example, 
they may park their car in a toll garage, purchase dinner at a 
restaurant, and eat dessert after the show. Valuable commerce is 
generated for local merchants. Our interviews of 95,000 patrons across 
all 50 states show that the typical attendee spends $27.79 per person, 
per event, in addition to the cost of admission. This is a great 
benefit from the $50 million in economic recovery funding as well, 
since that spending will generate the same event-related spending.
    When a community attracts cultural tourists, it harnesses even 
greater economic rewards. 39 percent of all arts attendance is by 
individuals who have traveled at least one county away to attend the 
event. Nonlocal audiences spend twice as much as their local 
counterparts ($40.19 vs. $19.53). Arts and culture are magnets for 
tourists, and tourism research repeatedly shows that cultural travelers 
stay longer and spend more. Whether serving the local community or out-
of-town visitors, a vibrant arts and culture industry helps local 
businesses thrive.
    Among the 160 communities and regions that we studied, a number of 
them are located in the districts of members of this committee and have 
been provided to you in your packets.
    For example, I offer the following:
    <bullet> Wilmington, Delaware, arts and culture organizations 
generate 1,372 Full-Time Equivalent Jobs (FTEs); $35.7 million in 
household income; $985,000 in taxes for local government; $20.5 million 
in event-related spending averaging $20.52 dollars per attendee 
excluding the price of admission.
    <bullet> Greater Harrisburg, Pennsylvania, arts and culture 
organizations generate 2,123 FTEs; $40.1 million in household income; 
$2.9 million in taxes for local government; $27.7 million in event-
related spending averaging $31.65 dollars per attendee excluding the 
price of admission.
Creative Industries: Business & Employment in the Arts
    The good news about the economic benefits of the arts is that they 
extend beyond just nonprofit organizations. Provided for the committee, 
are maps that deliver a statistical mapping report of the size and 
scope of arts businesses in your Congressional District. Americans for 
the Arts defines the creative industries as both for-profit and 
nonprofit businesses involved in the creation or distribution of the 
arts. They are businesses that we participate in for enjoyment (such as 
seeing a movie, attending a concert, or reading a novel); engage in for 
business (architecture, design, and musical instrument manufacturing 
companies); and invest in to enrich community livability (such as 
museums, public art, performing arts centers).
    We use as our data source, Dun & Bradstreet's national database of 
14.3 million active businesses and 135.6 million employees in the 
United States. Widely acknowledged as the most comprehensive and 
trusted source for business profiles and listings, Dun & Bradstreet is 
recognized by both global industry associations and the U.S. Federal 
Government.
    As of January 2009, our analysis reveals that 686,076 arts 
businesses exist across the nation and employ 2.8 million individuals. 
The Creative Industries report demonstrates that arts-centric 
businesses are contributing significantly to local economies across the 
country--representing 4.2 percent of all businesses and 2.04 percent of 
all jobs in the United States.
    <bullet> California Congressional District 7 is home to 1,292 arts-
related businesses that employ 3,983 people.
    <bullet> California Congressional District 25 is home to 1,693 
arts-related businesses that employ 5,636 people.
    <bullet> New York Congressional District 4 is home to 1,605 arts-
related businesses that employ 6,259 people.
    <bullet> Pennsylvania Congressional District 19 is home to 1,188 
arts-related businesses that employ 6,201 people.
    Cities that want the competitive economic edge, use these data to 
measure their creative industries. With more than 686,000 arts-centric 
businesses employing nearly 3 million people, arts education is a 
critical tool in fueling the creative industries of the future with 
arts-trained workers as well as new arts consumers. We know from 
published research studies that early learning in the arts nurtures the 
types of skills and brain development that are important for 
individuals working in the new economy of ideas. We also know that 
there is a strong correlation between participation and learning in the 
arts as a child and attendance of cultural activities as an adult.
Conclusion
    The arts community continues to gather research on the status of 
the field. I thank the committee for this opportunity to join you today 
and look forward to further working with you to preserve and bolster 
this important creative workforce, to generate economic development 
opportunities for our communities and to continue providing our country 
a great source of arts and cultural support.
                                 ______
                                 
    Chairman Miller. Thank you.
    Mr. Spring.

   STATEMENT OF MICHAEL SPRING, DIRECTOR, MIAMI-DADE COUNTY 
                 DEPARTMENT OF CULTURAL AFFAIRS

    Mr. Spring. Thank you for this opportunity to talk about 
the economic and employment impact of the arts from a local 
perspective.
    For the past 27 years, our Miami-Dade County Department of 
Cultural Affairs has been at the center of one of our Nation's 
most dynamic, diverse, and rapidly growing arts communities. In 
1982, there were a little more than 100 nonprofit arts 
organizations in Miami. Today there are more than 1,000 arts 
businesses.
    I want to begin with a short story about just one of these 
arts organizations, Miami City Ballet. Each season, this 23-
year-old company employs hundreds of people, not just the more 
than 50 dancers who have established the ballet as one of our 
Nation's great dance companies but also company administrators, 
accountants, carpenters, stage hands, seamstresses, teachers 
and physical therapists. Two months ago, Miami City Ballet made 
its triumphal appearance at City Center in New York City. The 
Times raved about the appearance saying, ``this is as good an 
advertisement for its home city as any ballet company in 
America.''
    Less than 2 weeks later, back in Miami, the ballet 
announced that, due to the worsening economy, it was laying off 
dancers and reducing its budget by more than 25 percent for 
next year. There are more layoffs likely to come. Now I could 
have told this story from a human-interest perspective in a 
shameless attempt to pull on your heart strings. But that is 
not the point of my testimony today.
    Instead, this story points out that our cultural sector is 
a major player in promoting Miami's new image for business and 
tourism. And it underscores the fact that arts organizations 
are subject to the very same forces affecting America's and the 
world's economic viability, job loss, and downsizing.
    So what did you really expect from a guy from Miami? 
Perhaps testimony about the economy's impact on South Beach 
hotels and on our ocean-view condo market. Instead, you got a 
story about the ballet and jobs. Well, Miami-Dade County is an 
endlessly surprising place, even for those of us who grew up 
there. Our county government is investing more than $1 billion 
in cultural infrastructure that is being matched multifold by 
businesses and individuals. Our Department of Cultural Affairs 
is one of the largest, in terms of budget size, in the United 
States.
    Why is Miami-Dade County investing so aggressively in the 
arts? Well, the answer is really simple. Our local elected 
officials, our business leaders and the public understand that 
a community's culture is the cornerstone of its economic 
vitality. We have the facts to support this. Our recent report 
on the arts and the local economy documented a $922 million 
impact by our arts and cultural industry each year. Our 
nonprofit cultural organizations employ more than 23,000 
workers. The more than 12 million people who attend cultural 
events each year spend more than a half a billion dollars 
beyond just buying a ticket to performances. They park their 
cars in garages. They spend their money in restaurants, hotels 
and shops before and after being energized by great theater, 
dance, and exhibition.
    These days, rhetoric in Miami that attempts to stereotype 
the arts as a frill is drowned out quickly. There is 
overwhelming evidence all around us that cultural facilities 
and nonprofit arts organizations are employing people, making 
our community better, improving kids' lives and playing a 
catalytic role in neighborhood and business redevelopment.
    Now, I know the people who work in our cultural industry. 
They are passionate about what they do, and they have to be, or 
they wouldn't be in this business. The average cultural worker 
in our community makes about $28,000 a year. That is 
approximately 30 percent less than the community's overall 
average salary. And like many other American workers, our arts 
employees work more than one job to make ends meet.
    Now, my mayor and the 13 members of our county commission 
see this phenomenal commitment every day. The budget for our 
Department of Cultural Affairs has more than quadrupled over 
the past decade. Even my exceedingly loyal staff of public 
servants knows that this is not just attributable to my charm 
and good looks. It is a recognition by our local elected 
leaders that the arts are a great investment for our community. 
The signal that our county is sending to our cultural workforce 
and to the business and individuals who support the arts is 
powerful. It is akin to the signal that this Congress recently 
sent across our Nation when $50 million was approved for the 
NEA as part of the American Recovery and Reinvestment Act. It 
says that you understand that, like other industries, jobs in 
the cultural sector are being lost and jeopardized. It says to 
us that artists and cultural businesses are part of the 
solution for restarting our economy and rekindling the 
creativity and the character that continue to make America 
great.
    I urge you to reinvest even more significant resources in 
the arts to help achieve America's economic and human recovery 
and revival. Thank you very much.
    [The statement of Mr. Spring follows:]

   Prepared Statement of Michael Spring, Director, Miami-Dade County 
                     Department of Cultural Affairs

    My name is Michael Spring and I serve as Director of the Miami-Dade 
County Department of Cultural Affairs. I am responsible for supervision 
of a public arts agency in Miami, Florida with an annual budget of more 
than $26 million and a staff of 35. Thank you for this opportunity to 
talk about the economic and employment impact of the arts from a local 
perspective.
    For the past twenty-seven years, our Miami-Dade County Department 
of Cultural Affairs has been at the epicenter of one of our nation's 
most dynamic, diverse and rapidly growing arts communities. In 1982, 
there were a little more than one hundred non-profit arts organizations 
in our County; today, there are more than one thousand arts businesses.
    This growth has occurred at every level--from grassroots, 
neighborhood groups energized by our tremendous diversity to major 
cultural institutions like the New World Symphony and the Miami Art 
Museum. We have been enriched by the waves of immigration that have 
brought new artists and arts supporters to our community and by the 
evolution of our County from a vacation and retirement spot to a major 
international center for commerce and tourism. Recognition of Miami's 
cultural stature has been accelerated by the accomplishments of our 
artists across the world and by recent phenomena like Art Basel Miami 
Beach, where thousands of arts travelers and members of the 
international press arrive in our community every December for the 
country's most exciting visual arts fair.
    A one thousand percent growth rate is phenomenal for any sector of 
our economy. Our first generation arts enterprises are producing new 
work with a distinctive Miami ``voice'' and are helping to create a 
bold new city. Our community's goal for investing in the arts is not 
modest; it is nothing less than establishing our place prominently in 
the global entertainment and economic marketplace.
    I want to offer a short story about just one of our many 
outstanding arts organizations--Miami City Ballet. Each season, this 
23-year old company employs hundreds of people--not just the more than 
fifty full-time dancers who have established Miami City Ballet as one 
of the nation's great dance companies, but also company administrators, 
accountants, carpenters, stagehands, seamstresses, teachers and 
physical therapists. Two months ago, Miami City Ballet made its 
triumphal appearance at City Center in New York City. The New York 
Times raved about the performances saying, ``this is as good an 
advertisement for its home city as any ballet company in America.'' 
Less than two weeks later, back in Miami, the Ballet announced that due 
to the worsening economy, it was laying off 8 dancers and reducing its 
budget next season by more than 25%. There are more layoffs likely to 
come.
    I could have told this story from a ``human interest'' perspective 
of dancers who have trained a lifetime and have mortgages and car 
payments to make. Or I could have talked about the legendary Edward 
Villella, the company's artistic director, who has put his heart and 
soul into building this company. This would have been a shameless 
attempt to pull on your heartstrings; but that is not the point of my 
testimony today. Instead, this story points out that our cultural 
sector is a major player in promoting Miami's new image for business 
and tourism. It also demonstrates that the non-profit arts industry, as 
an employer, is an integral part of our local economy. And it 
underscores the fact that arts organizations are subject to the very 
same forces affecting America's and the world's economic viability. The 
results--job loss and downsizing--are jeopardizing our ability to 
employ people and sustain this cultural segment of the economy.
    Miami-Dade County is an endlessly surprising place, even for those 
of us who grew up there. It amazes visitors and even some residents 
that we are building one of the newest, major cultural centers in the 
world.
    Our County government is investing more than one billion dollars in 
cultural infrastructure that is being matched multifold by businesses 
and individuals. Our Department of Cultural Affairs is one of the 
largest in terms of budget in the nation. Recently, we opened a major 
new, $481 million performing arts center in downtown Miami. We are 
upgrading and building dozens of neighborhood cultural facilities. And 
just four years ago, the voters of our community passed a referendum by 
a two to one margin to approve more than $450 million in general 
obligation bonds for cultural facilities building projects--including 
new downtown, bayfront art and science museums.
    Why is Miami-Dade County investing so aggressively in the arts? The 
answer is very simple: our local elected officials, our business 
leaders and the public understand that a community's culture is a 
cornerstone of its economic vitality.
    We have the facts to support this. Our recent report on the arts 
and the local economy documented a $922 million impact by Miami-Dade 
County's arts and cultural industry each year. Our non-profit cultural 
organizations employ almost 23,000 workers. The more than 12 million 
attendees to cultural events each year spend more than a half a billion 
dollars beyond buying tickets to performances. They park their cars in 
garages and spend their money in restaurants, hotels and shops before 
and after being energized by theater, dance and art exhibitions. Our 
neighborhood businesses rely on the ``traffic'' created by our non-stop 
calendar of arts activities.
    There is another powerful economic effect of the arts in our 
community. Cultural facilities and their performances and exhibitions 
are revitalizing our neighborhoods. Our Mayor and County Commission 
have seen the transformative effect of the arts on some of the most 
abandoned and neglected parts of our community. Miami-Dade is a living 
laboratory demonstrating how pioneering arts groups and artists have 
helped to transform places like Lincoln Road, South Beach and Little 
Havana from once forbidding to now thriving and safe neighborhoods. In 
fact, we designated our new performing arts center as the catalytic 
project for the tax increment district in the north part of downtown 
Miami. The Center's effect on revitalizing this area has far exceeded 
even the most optimistic projections. Tax increment funds have grown 
ten times as much as expected. What was a part of downtown that people 
avoided is being transformed into a vibrant entertainment, education 
and business district.
    These days in Miami, attempts at rhetoric that stereotype the arts 
as a ``frill'' are drowned out quickly. There is overwhelming evidence 
all around us that cultural facilities and non-profit arts 
organizations are employing people, making our community better, 
improving kids' lives and playing a catalytic role in neighborhood and 
business redevelopment.
    In fact, the John S. and James L. Knight Foundation affirmed the 
power of the arts last year when they announced the investment of $40 
million of the foundation's funds in our community through the Knight 
Arts Challenge. In considering the most promising way to continue to 
transform Miami into one of the great 21st century cities, the Knight 
Foundation selected the arts as its one strategic area for this 
significant infusion of private funds.
    Our burgeoning cultural life also is a strategic element of 
promoting Miami as a tourism destination. Our Greater Miami Convention 
& Visitors Bureau gets it. They understand that a community's cultural 
assets give it a competitive edge in attracting tourists and 
conferences. When we vie with the Caribbean for vacationers, submit our 
successful bids to host Super Bowls or compete for major conventions, 
we sell our destination as the ``sophisticated tropics''--featuring 
fabulous beaches, great shopping and cuisine, America's preeminent 
cruise ship port and an art scene that entertains 24/7.
    What do our business leaders think about the arts? Our local 
economic development agency, the Beacon Council, did a survey of Miami 
businesses last year. They found that more than 75% of our local 
businesses consider having vibrant cultural activities as important or 
very important to their companies. Almost 80% support the arts through 
employee participation on boards or as volunteers with cultural 
organizations.
    In a survey of citizens undertaken by Miami-Dade County last 
October, 60% of our residents were very satisfied or satisfied with the 
quality of the cultural offerings in our community. This was up by more 
than 10% from the 2005 survey results. This is remarkable given the 
youthfulness of our cultural life and the newness of most of the 
population of our County. The vast majority of Miami-Dade's cultural 
organizations are less than a generation old; most of the residents of 
our community were not born here. In spite of the youth of our cultural 
community and its audiences--and the fact that in Miami, traditions of 
arts-going have not yet had generations to take hold--our citizens are 
increasingly recognizing the quality and diversity of our arts 
activities.
    Even today, at a moment when disposable income for our citizens is 
at a premium, attendance by Miamians at concerts, museums, plays and 
dance performances is reported as ``up'' this season. People are 
expressing their priorities by what they are willing to purchase as 
their buying power diminishes. Admittedly, ticket sales do not make up 
for the significant downturn in contributions by individuals and 
businesses but our enthusiastic audiences are demonstrating that people 
value the arts as an integral part of their lives.
    For our young city, the job of reaching the children of our 
community is critically important. Like other local arts agencies 
across America, our Department focuses resources on making the arts 
affordable and accessible for families and kids. Cultural activities 
supported by our Department serve more than 2 million children 
annually. Our Department directly reaches thousands of kids each year 
with a scholarship program to make summer arts and sciences camps 
available to those who might otherwise not have the means or 
opportunity to go. In addition, through our Culture Shock Miami 
program, high school and college students, ages 13-22, can buy tickets 
for only $5 to almost any arts event in town. Thousands of students are 
online buying these tickets to the arts and discovering the wonder of 
live performances and learning about the richness of our diverse 
cultures. In our day care centers, in our schools and on standardized 
tests, we are seeing a direct correlation between a child's involvement 
in the arts and success in the classroom. The arts are an essential 
part of preparing students to excel in an increasingly complex, 
competitive and sophisticated job marketplace.
    I know the people in our cultural workforce. They are passionate 
about what they do. They have to be or they would not be in our 
business. The average cultural worker in Miami-Dade County makes about 
$28,000 a year--that's approximately 30% less than our community's 
overall average salary. Like other American workers, many arts 
employees work more than one job to make ends meet. Most artists and 
arts administrators work without the kinds of benefits that are offered 
to their peers employed by the for-profit sector or even government. 
And they are committed beyond reason to making sure that only the best 
quality product reaches our stages and gallery walls. They believe 
deeply that the arts can change lives and put this into action by 
producing programs for school kids even when money is scarce to do 
this.
    Miami-Dade County Mayor Carlos Alvarez and the thirteen members of 
our County Commission see this kind of phenomenal commitment every day. 
The budget for our Department of Cultural Affairs has more than 
quadrupled over the last decade. This is an explicit recognition by our 
elected leaders that the arts are a great investment for our community. 
Last year, due to the enactment of statewide property reform measures, 
our County government had to reduce its budget by more than $200 
million. Now that's a lot of money where I come from. I am proud to 
report that the budget for our Department of Cultural Affairs was not 
reduced.
    The signal that our County is sending to our cultural workforce and 
to the businesses and individuals who support the arts is powerful. It 
is akin to the signal that this Congress recently sent across our 
nation when $50 million was approved as a part of the American Recovery 
and Reinvestment Act. It says to me and the thousands of people who 
support and work in the arts in my town that you recognize the 
contributions that we are making every day to the economy. It says that 
you realize that non-profit cultural groups employ people in our cities 
who work hard, day and night, weekdays and weekends, to make a better 
life for our families and kids. It says that you understand that like 
other industries, jobs in the cultural sector are being lost and 
jeopardized. It says that progressive governments understand the 
amazing return on investment that adequate support for the arts 
produces--for our cities and for our people. It says to us that artists 
and cultural businesses are part of the solution for restarting our 
economy and rekindling the creativity and character that continue to 
make America great.
    I thank you for your support of the arts and urge you to reinvest 
even more significant resources as a strategic and productive way to 
help achieve America's economic and human recovery and renewal.
    I am proud offer this testimony along with our nation's leading 
non-profit organization for advancing the arts in our country, 
Americans for the Arts, where I serve as a board member. Together, we 
attest to the vitality of the arts across our country and to the 
essential role of local arts agencies, artists and arts organizations 
in cities and towns throughout America. We also affirm the remarkable 
returns being realized by progressive governments in setting policies 
and investing support in the work of non-profit arts organizations and 
artists.
    For an online copy of ``The Impact of the Arts in Miami-Dade 
County'' study please go to www.miamidadearts.org/Documents/
Publications/2008%20Arts%20Economic%20Impact%20Study.pdf
    For more information about the Miami-Dade County Department of 
Cultural Affairs, please go to www.miamidadearts.org.
    To see the Miami-Dade County Department of Cultural Affairs' 
discount ticket program for high school and college students, Culture 
Shock Miami, please go to www.cultureshockmiami.com.
    For information about the thousands of intrepid local arts agencies 
throughout our nation making America's communities more vibrant and 
economically successful, please go to www.americansforthearts.org.
                                 ______
                                 
    Chairman Miller. Thank you.
    Mr. Bahr.

      STATEMENT OF MICHAEL BAHR, EDUCATION DIRECTOR, UTAH 
                     SHAKESPEAREAN FESTIVAL

    Mr. Bahr. Chairman Miller, members of the committee, I am 
Michael Bahr, the education director for the Utah Shakespearean 
Festival, and I am grateful for this opportunity to share the 
impact the festival has on its community and the challenges 
that are affecting not only us but our sister organizations 
across the country.
    The festival has played a large role in defining the rural 
town in which we live, and therefore, the present status of the 
economy threatens not only the arts and industry but Cedar 
City, Utah, itself.
    Let me share a little bit about the festival. The Utah 
Shakespearean Festival, now in its 48th year, is a destination 
theater that produces Shakespeare and other classic plays in 
repertory, and is located in rural Iron County in Cedar City, 
Utah, a town of 28,000 people. The festival produces nine plays 
in repertory for 130,000 attendees a year.
    The average patron travels over 200 miles one-way to 
attend, with primary audiences coming from Utah, Nevada, 
Arizona, and Idaho. These patrons generate from $30 million to 
$35 million for the local economy through lodging, dining, 
shopping, fuel, and recreation. The festival's budget for 2008 
was $6.7 million. Our funding is approximately 75 percent 
earned income, that is ticket sales, concession, and 
merchandise; and 25 percent unearned income, that is grants, 
foundations, and gifts.
    I would encourage you to read the minutes we have before 
you about our lovely history. Let me get to the good stuff, or 
shall I say the bad stuff.
    Sales for our 2009 season are currently nearly 20 percent 
behind where we were last year. Foundations have already 
significantly reduced their gifts because of shrinking or 
nonexistent portfolios. Consequently, our budget, which was 
$6.7 million for the 2009 year, is now $5.9 million. At $5.9 
million, we have cut about $800,000 in total cost, but in 
reality, the cuts are much deeper. These cuts include the 
following: three full-time positions from a 28-member staff to 
25, but what really hurts is 55 seasonal positions. We have a 
staff of 390 total employees which is now down to 335. Those 
are actors, electricians, costumers, carpenters, company 
managers, et cetera, because for every one actor, there are 
seven people that support those one actors. All live musicians 
for the present season have been cut. One-week reduction in the 
summer season, one-week reduction in the fall season, and a 
two-week reduction in rehearsal times. Our fall season, which 
includes Pericles, a very large wonderful Shakespeare play, has 
now been reduced to Tuesdays with Morrie and the Complete Works 
of William Shakespeare, and Women in Black, all two- and three-
person shows.
    Our theater, like other businesses, is required to pay 
unemployment. When an employee does not find a job after his 
work is finished with us, he goes to another part of the 
country. And when unemployment is found, we have to pay that 
unemployment. In an average year, we have paid approximately 
$60,000 to $70,000 annually in unemployment fees. Last year we 
saw that double to $130,000, and just in the month of February 
alone, we have paid $14,000 in unemployment for actors outside 
of our area after they have left our area.
    Cedar City merchants and civic leaders have already 
expressed great concerns about these cuts. We think it is clear 
that by cutting 2 weeks from our season, cutting the size of 
our shows and the amount of material we buy to produce them, by 
cutting the number of employees we hire, the economic benefit 
to our community will decrease measurably.
    Cedar City benefits economically from the many visitors who 
travel to the festival each year. Various economic impact 
studies have been done. In 2002, the International Festival and 
Dance Association estimated the economic impact from the 
festival on our community was $64 million, and Americans for 
the Arts, in 2007, found that the nonprofit arts were $22.47 
million. We see that and in talking with our Chamber of 
Commerce as about $30 million to $35 million. In addition to 
serving our own county, the festival, through its education 
department, has a strong relationship with educational 
entities.
    We are part of the National Endowment for the Arts 
Shakespeare for a New Generation and serve 70 schools and 
30,000 students annually. They have also contacted us and are 
worried about cuts happening within this area.
    Perhaps the most revealing story of the impact of the 
festival on Cedar City is the building of a new theater during 
the 1980s recession. And I think this is relevant now. For many 
years, Cedar City's economy had been bolstered by active iron 
mines around the town. As the bottom fell out of the iron 
market during the 1980s, the mines were closed and jobs were 
lost. But the festival was still running at 98 percent in 
attendance. And so the city fathers and the festival said, 
let's throw our money into this. And with help from Housing and 
Urban Development, we had $2.3 million that we invested in a 
$7.5 million new theater. Within 5 years, we recouped all of 
that cost through increases in sales and property taxes alone 
within our area.
    Art in Cedar City is not luxury. It is business. It feeds 
our souls and our families. It hires an educated and talented 
workforce. It provides positive economic impact far beyond the 
theater. Around 1590, a farm boy from the country whose father 
dealt in sheep and gloves travelled to the big city of London 
and started writing plays. His plays became successful. He 
bought interest in his theater. He was a businessman, and it 
was good business.
    He said, ``The man that hath no music in himself, nor is 
not moved with concord of sweet sounds, is fit for treason, 
strategems and spoils * * * let no such man be trusted. Mark 
the music.''
    May we preserve and mark the music, art, theater and dance 
that moves us and keeps us all human.
    Thank you.
    [The statement of Mr. Bahr follows:]

        Prepared Statement of Michael Bahr, Education Director,
                      Utah Shakespearean Festival

    Chairman Miller, Members of the Committee, I am Michael Bahr, the 
education director for the Utah Shakespearean Festival, and I am 
grateful for this opportunity to share with the Committee on Education 
and Labor the impact the Festival has on its community and the 
challenges that are affecting not only us but also our sister 
organizations across the country. The Festival has played a large role 
in defining the rural town in which we live; therefore, the present 
status of the economy threatens not only the arts and our industry, but 
consequently the community I live in.
Background
    Let me share some background about our organization so you can 
understand our present challenges: The Utah Shakespearean Festival, now 
in its forty-eighth season, is a destination theatre that produces 
Shakespeare and other classic plays in repertory. It is located in 
rural Iron County and is hosted on the campus of Southern Utah 
University in Cedar City, Utah, a city of 28,000 people. The Festival 
produces nine plays in repertory for 130,000 attendees a year. The 
average patron travels over 200 miles one-way to attend, with the 
primary audience coming from Utah, Nevada, Arizona, and Idaho. These 
patrons generate 30 to 35 million dollars for the local economy through 
lodging, dining, shopping, fuel, and recreation. The Festival's budget 
for 2008 was $6.7 million dollars. Our funding is approximately 75 
percent earned income (ticket sales, concessions, and merchandise) and 
25 percent unearned income (grants, foundations, and other gifts).
History
    In 1962, Fred C. Adams, the Festival's founder, was a college 
theatre professor in Cedar City who had a dream of creating a 
Shakespearean festival in the heart of the red rocks of southern Utah. 
With $1,000 donated from the local Lion's Club, Adams started his first 
season. The first season ran for two weeks and yielded $3,000 in ticket 
sales. This left Adams with a budget of $2,000 for his second season. 
The Festival grew in size and scope with professional actors, 
designers, artisans and directors joining the company. The community 
also rallied around and caught the vision. Today, the Festival performs 
nine plays in three theatres from late June to late October.
    The Festival has received numerous accolades and national praise, 
including the prestigious Tony Award in the year 2000 for Outstanding 
Regional Theatre, the 2001 National Governors Association Award, and 
the Utah Best of State Award in 2003.
Economic Challenges Result in Cuts
    Now, nearly 50 years later, sales for our 2009 season are currently 
nearly 20 percent behind where we were last year. And some foundations 
have already significantly reduced their gifts because of shrinking or 
non-existent portfolios. Based on what we are projecting for 2009, and 
our steadily increasing costs, we cut deeply our 2009 budget. When the 
cuts were finished we had dropped from a budget of 6.7 million to 5.9 
million. These cuts are even deeper than they appear because of the 
many fixed cost that could not be reduced. While it appeared to be a 
cut of $800,000, in reality it was much deeper. These cuts included the 
following:
    <bullet> Three full-time positions (from 28 to 25)
    <bullet> 55 seasonal positions, including actors, electricians, 
costumers, carpenters, company managers, etc. (from 390 to 335; for 
every one actor it takes seven employees to support them)
    <bullet> All live musicians (requiring recorded music instead)
    <bullet> A one-week reduction in the summer season
    <bullet> A one-week reduction in the fall season
    <bullet> A two-week reduction in rehearsal time
    <bullet> The replacement of two fall play titles, Pump Boys and 
Dinettes and Pericles with the much smaller and less expensive Tuesdays 
with Morrie and The Complete Works of William Shakespeare (abridged)
    <bullet> The closing of two buildings
    <bullet> The elimination of cell phones (except for three 
positions)
    <bullet> The establishment of a shared housing policy for company 
members
    <bullet> The elimination of vocal coach and dramaturgy positions in 
the fall season
    <bullet> Shorter ticket office hours
    <bullet> Reduced travel for recruitment, training, conferences, 
etc.
    <bullet> Reduced custodial and building maintenance
    In addition, the bad economy has caused some costs to skyrocket: 
especially unemployment. Our theatre, like other businesses, is 
required to pay unemployment when an employee does not find a job after 
his work is finished with us. Thus when another theatre closes or 
downsizes in another part of the country, it affects us because the 
artists that work for us can't find another job. In the past we have 
paid approximately $60,000 to $70,000 annually in unemployment claims. 
In 2008 that number doubled to to $130,000. In 2009 we have budgeted 
for a similar amount; we can only hope it is enough.
Community Economic Impact, Then and Now
    Cedar City merchants and civic leaders have already expressed great 
concern about these cuts. We have heard from many who are worried about 
the loss of two weeks of revenue from patrons and four weeks of revenue 
from Festival seasonal employees. We think it is clear that by cutting 
two weeks from our season, by cutting the size of our shows and the 
amount of materials we buy to produce them, by cutting the number of 
employees we hire, the economic benefit to our community will decrease 
measurably.
    Cedar City benefits economically from the many visitors who travel 
to the Festival each year. Various economic impact studies have 
attempted to track this benefit. One study, completed in 2002 by the 
International Festival and Events Association estimated that the 
economic impact of the Festival was $64,321,873. In 2007, American for 
the Arts in The Arts and Economic Prosperity III found that the 
nonprofit arts were a $22.47 million industry in Iron County. However, 
this study surveyed only the full-time jobs of the nonprofit industry, 
leaving out the vast impact of our seasonal employees. We at the 
Festival feel that the real number is somewhere between these two. But, 
whatever the number, the economic benefits will definitely decrease.
Regional Impact
    And the pain may spread. In addition to serving Iron County, the 
Festival, through its education department, has a strong relationship 
with educational entities across the Intermountain West. Various 
programs serve multiple ages and provide professional, educational 
outreach. For example, we are honored to be a member of the National 
Endowment for the Arts Shakespeare for a New Generation program. 
Through this program we are able to reach 30,000 students annually, 
from seventy schools in Utah, Nevada, Arizona, and Idaho. Many rural 
communities have called, fearful that our outreach programs might be 
cut by our budget challenges. We hope not, but the future is uncertain 
at best.
A New Theatre Brings Revenue to Town
    Perhaps the most revealing story of the impact of the Festival on 
Cedar City is the building of a new theatre during the 1980s recession. 
For many years, Cedar City's economy had been bolstered by active iron 
mines west of town. As the bottom fell out of the iron market, the 
mines were closed, jobs were lost, houses were put up for sale, the 
economy slumped. At that time, the Festival performed primarily in only 
one theatre, the Adams Shakespearean Theatre, which, despite the 
recession, was still operating at 98 percent capacity. The Festival and 
the city proposed an additional theatre, and in 1987/88, 2.3 million 
dollars were obtained from Housing and Urban Development to assist in 
building the 7.5 million dollar facility. Mineral lease funds, revenue 
that had been generated from the mines, were also used. Within five 
years of the opening of the new Randall L. Jones Theatre, Joe Melling, 
Cedar City manager, said that the money invested in the building had 
been re-couped through an increase in sales and property tax alone.
Art Is Not a Luxury
    Art in Cedar City is not a luxury; it is business. It feeds our 
souls and our families. It informs and educates our citizens. But it 
also fills our dinner plates, pays our mortgages, and enhances our 
standard of living. It hires an educated and talented workforce. It 
fills our hotels, our restaurants, our shops. It provides positive 
economic impact far beyond the theatre.
    Around 1590, a farm boy from the country whose father dealt in 
sheep and gloves traveled to the big city of London and started writing 
plays. He became so successful he bought interest in his own theatre; 
hmmm, he was a businessman. And of course it was good business, because 
everyone wanted to see the plays, because they were about US. His plays 
had a resonance for he knew the common man. He said:

      The man that hath no music in himself,
        Nor is not moved with concord of sweet sounds,
      Is fit for treasons, stratagems and spoils;
        The motions of his spirit are dull as night
      And his affections dark as Erebus:
        Let no such man be trusted. Mark the music.

                                    The Merchant of Venice, Act V, 
Scene 1

    May we preserve and ``Mark the music,'' art, theatre, and dance 
that moves us and keeps us human.
                                 ______
                                 
    Chairman Miller. Thank you very much.
    Mr. Daly.

  STATEMENT OF TIM DALY, ACTOR AND CO-PRESIDENT, THE CREATIVE 
                           COALITION

    Mr. Daly. Thank you, Chairman Miller, members of the 
committee.
    My name is Tim Daly. I am here as an actor, producer, 
director, and co-president of The Creative Coalition, which is 
a nonprofit, nonpartisan public advocacy organization of the 
arts and entertainment community.
    I want to thank you for holding this hearing and for 
allowing me to testify and echo a lot of the things that my 
fellow testifiers/testifees have said.
    I am not sure that enough people understand that millions 
of Americans earn their livelihoods through the arts and 
ancillary professions or that the entertainment--entertainment 
is America's second largest export. Too often we look at the 
arts as something extra, something outside of our daily lives, 
as a luxury item. And I am here to--I am on a mission to make 
people understand that arts are part of our cultural, 
educational and economic main course. They are not dessert.
    So today I would like to show you how I see things 
firsthand as a working actor in the commercial sector. I would 
also like to leave you with a couple of thoughts about ways I 
think we can ensure that our arts economy remains vibrant. 
First, a little background about how arts has impacted my own 
family.
    After serving in World War II in the Navy for 5 years, my 
dad moved to New York where he made his living working on 
Broadway and off Broadway in the theater and then later in 
television. Decades before I played a doctor on ``Private 
Practice'' he was known as Dr. Paul Lochner on a TV series 
called ``Medical Center.'' And of course my sister Tyne Daly is 
a wonderful and well known actor, and now a third generation is 
entering the business, including Tyne's daughter and my own 
son; God help them both. My son needs a job, by the way.
    So my family accounts for a few of the 45,000 professional 
actors that the Bureau of Labor statistics estimates are 
working in the United States. But that number does not begin to 
capture the real employment impact of the entertainment 
industry. For instance, when a studio green lights a movie, the 
press is filled with news about the star, but the real story is 
the thousands of people that are put to work on that 
production. The next time you are in the movies, stay in your 
seat and watch the entire credits role to the end, and you will 
get an idea about the number of people who worked so hard to 
bring that film to the screen. And the economic impact on the 
community is enormous.
    My show ``Private Practice'' for instance, which is an 
hour-long TV drama, it takes us 9 days to shoot an episode. We 
employ 200 people full time during that production season. For 
two of those 9 days, we have an additional crew of 50 people on 
the set and each episode can have between 100 and 300 extras.
    But beyond that, in any single 9-day period, the show 
spends about $20,000 on food for caterers; $25,000 to $40,000 
on clothes and costumes; $15,000 on sets and furniture; and 
$2,500 on dry cleaning, which is, I mean, that could keep a dry 
cleaners open, one TV show. And yet people seldom make that 
connection. But if you add up the numbers and the tax revenue 
and the money spent in the community by those employed on the 
show, you will quickly see how big the economic impact is.
    But I think the story is, there is a lot more to it. I have 
been thinking a lot lately about the iPod. A recent study by 
researchers at UC Irvine estimate that 14,000 jobs with wages 
of $753 million were created in the U.S. as a result of the 
iPod in 2006. The innovation, engineering, technology and 
manufacturing of this ubiquitous product would not exist 
without people's desire to enjoy music in their daily lives. 
Without art, there is no iPod. So we have to take those jobs 
into account.
    Art and entertainment are important engines of our economy, 
and we can't take that for granted. We have to invest in it 
like we invest in any other sector. And here are a couple of 
ways we can do that. First, Federal support for the arts plays 
a pivotal role. We are really grateful for the expanded NEA 
funding in the stimulus, and we encourage continued and strong 
and growing support for the nonprofit arts sector. Investment 
is so small when one looks at the returns both to society and 
both culturally and economically.
    Second, we have got to nurture the next generation by 
giving our kids access to art in schools. I know that is 
primarily a State responsibility, but the economic consequences 
of letting arts in schools atrophy will be felt nationally. In 
rough times, arts is usually the first things to go. We need to 
give our kids the chance to exercise their imagination so that 
they can be the most creative and innovative thinkers that they 
can be, whether they wind up as artists, engineers, scientists, 
mathematicians, politicians, we need creative thinkers to 
compete in the global economy.
    And arts train the creative mind. If just one person's 
creative spark catches fire, the economic impact can be 
enormous. I am thinking of the artistic vision of Shonda 
Rhimes, who created both the hit series ``Grey's Anatomy'' and 
``Private Practice.'' She is essentially an inventor who 
started two successful companies, two television shows. She is 
a storyteller. But what she has done is provided good jobs, 
pumped millions of dollars into our economy each week. And if a 
businesswoman were to open a factory employing thousands of 
people, we would hail her entrepreneurial spirit and see how we 
could support her with public policy, replicate her success. 
And artists can have the same economic impact. Yet we see her 
as a creator of stories and not as a creator of jobs. And we 
have got to change that misconception.
    Yes, arts inspire us. They entertain us. They reflect back 
to us our triumphs, our failures. They bring us beauty and joy. 
They challenge our beliefs. And at best, they nourish our 
souls. But we have also got to recognize that arts employ our 
neighbors. They support small businesses, create jobs and 
foster innovations. We have got to start discussing arts as 
part of our daily lives. And they are part of our culture and 
our education and our economic main course.
    Thank you for giving me the opportunity to testify. I 
really do look forward to answering your questions if you have 
them. And I mean that.
    [The statement of Mr. Daly follows:]

        Prepared Statement of Tim Daly, Actor and Co-President,
                         the Creative Coalition

    Chairman Miller, Ranking Member McKeon and members of the 
Committee, my name is Tim Daly, and I am here today as an actor, 
producer, director, and as co-president of The Creative Coalition. The 
Creative Coalition is the non-profit, non-partisan public advocacy 
organization of the arts and entertainment community. Our members are 
actors, directors, producers, writers, musicians, dancers, painters and 
others who make their living in performing and fine arts. I would like 
to thank you for holding this hearing and recognizing the important 
role that arts play in our economy.
    I don't believe it is commonly known that entertainment is 
America's second largest export, and millions of Americans earn their 
livelihoods through the arts and in ancillary occupations. Despite that 
fact, it seems to me that we too often look at art as something extra, 
a luxury item, something that is disconnected from our daily lives and 
our economy. It is my mission to make America understand that the arts 
are part of our cultural and economic main course; they are not 
dessert.
    Today, I want to talk with you as a working actor about how I see 
the economic impact of the entertainment industry today. I'd like to 
follow that discussion with three concrete things we can do to ensure 
that America's arts economy remains vibrant in the years ahead.
    Let me start with a few words about the impact of the arts on my 
own family. After serving for five years in the Navy during World War 
II, my father came to New York City and supported our family as an 
actor in the theatre, both on and off Broadway, and later, on 
television. Decades before I began playing a doctor on Private 
Practice, my father starred as Dr. Paul Lochner on the television 
series Medical Center. My sister Tyne is a well known actress. And now 
a third generation of Dalys, including Tyne's daughter and my son, has 
entered the profession. We have been blessed to work in the theatre, 
both on and off Broadway, in non-profit regional theatre, in film, 
radio, and on television. But the story is larger. My family is 
inundated with artists. We make our livings as musicians, writers, 
composers, painters, animators, photographers, actors, directors and 
performance artist. We owe everything to the arts and to our pursuit of 
artistic expression.
    According to the federal Bureau of Labor Statistics, I'm one of 
roughly 45,000 working professional actors in the U.S., but that number 
doesn't begin to capture the employment impact of the entertainment 
industry. When an A-list star, like Julia Roberts, agrees to do a 
movie, the press is filled with the news about that individual. But the 
real economic story is about the thousands of people put to work when 
that movie is produced.
    Each production--whether a movie, television show or play--takes an 
incredible amount of support and behind-the-scenes labor and talent. 
Next time you watch a movie, stay in your seat until the credits stop 
rolling, and you'll get a sense of the huge number of actors, 
craftsmen, editors, technicians and others who work so hard to bring 
that film to the screen.
    More importantly, take a look at the economic impact that the 
entertainment industry can have on a community. For example, my show, 
Private Practice. We just finished shooting our second season, and I'd 
like to try to give the members of the Committee a sense of the 
economics at work on an hour-long network drama. It takes us nine days 
to shoot one episode of Private Practice. We employ about 200 people 
day in and day out during production season. For two of those nine 
days, we have a second crew of 50 people on set, in addition to those 
regularly working on the show, and each episode can have 100 to 300 
extras.
    Look beyond those employed on the show and you'll see the ripples 
spread still farther across the economy. In that nine-day period, the 
show spends about $20,000 on food from outside caterers. $25,000 to 
$40,000 is spent on clothes and costumes, $2,500 on dry cleaning, and 
$15,000 on furniture for the sets. Again, those numbers are for a 
single episode. Add up the numbers and the sales tax, and the money 
spent in the community by those employed on the show, and it quickly 
becomes apparent how big the impact on the local economy can be.
    Even those numbers, though, don't give us a complete picture of the 
jobs created. I think the employment impact needs to be viewed through 
a much broader lens. Take a technology like the iPod, for example. Here 
is a blockbuster product that exists to deliver entertainment to 
individuals. A recent study by researchers at the University of 
California, Irvine, estimated that 14,000 jobs were created in the U.S. 
as a result of the iPod in 2006, with $753 million in wages generated 
as a result. The engineering, innovation, technology and manufacturing 
of this ubiquitous product would not exist without people's desire to 
have music in their daily lives. Without the art, there would be no 
iPod.
    In ways large and small, obvious and obscure, art and entertainment 
are important engines of our economy. But we cannot take this for 
granted. We must take steps to ensure the continued vibrancy of our 
arts and entertainment. We have to invest in the future. Here are three 
ways we can do that.
    First, federal support for the arts continues to play a critical 
role. The Creative Coalition strongly supported Congress' decision to 
expand funding for the National Endowment for the Arts in the recently 
passed stimulus package, and we encourage continued strong support for 
the not-for-profit arts sector. The investment is so small when one 
looks at the tremendous returns that arts and entertainment pay back to 
society both culturally and economically.
    In these troubled times, we should look to President Franklin 
Roosevelt's example. The New Deal's arts programs created much-needed 
jobs and fostered great talents that otherwise may have been lost. The 
contributions of those artists to our culture endure, and their 
successful careers resulted in employment for many others in the years 
that followed.
    Second, it's vitally important that we nurture the next generation 
by giving our kids access to art in schools. I know this is primarily a 
state responsibility, but the economic consequences of letting arts in 
schools atrophy will be felt nationally. In tough times, arts education 
can be the first thing to go. Again, I think we make a fatal mistake if 
we view the arts simply as a luxury. We don't need to promote a career 
in the arts, but we do need to give our kids a chance to exercise their 
imaginations so that they can be the most creative and innovative 
thinkers they can be. We need creative engineers, and mathematicians, 
and scientists, and yes, politicians in order to compete in the global 
economy. Arts train the creative mind.
    Third, it's imperative that we change the discussion about the arts 
in our culture. We must acknowledge not only that arts inspire us, 
reflect back to us our triumphs and mistakes, bring us beauty and joy, 
challenge our beliefs, and enrich our souls, but also that we are 
surrounded by the work of artists every day. The arts are interwoven 
with engineering, with innovation, with technology, and these creators 
are part of our economic and cultural main course.
    In conclusion, I'd like to tell you about Shonda Rhimes, a writer 
who is the creator of both Grey's Anatomy and Private Practice. It's 
amazing to think that all of the economic activity I described 
surrounding Private Practice stems from her artistic vision. She is 
essentially an inventor who started two successful companies--these two 
television shows--that provide good jobs and pump millions of dollars 
each week into our economy. If a businesswoman were to open a factory 
employing a thousand people, we would hail her entrepreneurial spirit. 
In the arts, someone like Shonda Rhimes has the same economic impact. 
Yet we often forget that these artists are not only creators of 
stories, but also creators of jobs for a broad sector of our society.
    I thank the Committee for giving me this opportunity to testify. I 
look forward to answering any questions you may have.
                                 ______
                                 
    Chairman Miller. We will take that direction.
    Mr. Ridge.

STATEMENT OF BRUCE RIDGE, MUSICIAN AND CHAIRMAN, INTERNATIONAL 
           CONFERENCE OF SYMPHONY AND OPERA MUSICIANS

    Mr. Ridge. Good morning Chairman Miller and members of the 
committee.
    My name is Bruce Ridge. I am chairman of the International 
Conference of Symphony and Opera Musicians, or ICSOM, which is 
a conference of the American Federation of Musicians. I am also 
a double bassist in the North Carolina Symphony.
    On behalf of ICSOM's thousands of members and AFM's tens of 
thousands of members, comprising over 230 affiliated locals 
across the country, including Local 367 in Vallejo and Local 
424 in Richmond, in your district, Mr. Chairman, I thank you 
for your attention to this issue.
    Chairman Miller. So do they.
    Mr. Ridge. In 1932, my orchestra was founded by the WPA. 
That was also a time of economic crisis. But instead of cutting 
back, we invested in the arts.
    Critics sometimes say that classical music is just for the 
elite, but as an orchestral musician, I know how much everyone 
loves to hear us play. And the numbers bear this out. Opera 
attendance has increased 40 percent since 1990. Classical music 
accounts for 12 percent of sales on iTunes, and music schools 
across the country are seeing an all-time high in the numbers 
of applicants.
    Musicians don't do it for the money. We are ultimately the 
Nation's biggest donors to the arts. And we are the ones who 
sacrifice to keep orchestras alive in hard times. We happily 
give to the arts. But we must still pay doctors' bills, make 
rent, and feed our families.
    I have been fortunate in my career. I started playing at 
age 10. And I have worked steadily as an orchestral musician 
for 30 years. By age 15, I was a working professional in the 
Virginia Symphony. I would go from school to symphony and then 
play in late-night jazz clubs I was too young to legally get 
into otherwise. Back home by 3:00 a.m., I would be sitting in 
school just a few hours later.
    Although I may have started a bit younger than others, my 
story is not atypical. Many classical musicians work several 
jobs, driving from town to town as members of a Freeway 
Philharmonic. Some members work in as many as four different 
orchestras, each a different 2-hour commute from home and each 
with its own set of concerts, rehearsals and community 
involvement.
    In today's economic climate, the challenges for working 
musicians are growing ever more serious. Many orchestras face 
the prospect of reduced seasons, layoffs, lower wages and 
higher health care premiums. This is a national problem. The 
musicians of the Cincinnati Symphony, one of the world's finest 
orchestras, recently accepted an 11 percent pay cut. The 
Baltimore Opera Company has filed for bankruptcy. The Santa 
Clarita Symphony in Congressman McKeon's district cancelled its 
2009 season. The musicians of the Honolulu Symphony are now 7 
weeks behind in paychecks. On a daily basis, my phone rings 
with more news of yet another orchestra's financial crisis.
    For musicians, the losses are immeasurable. Some must sell 
their instruments to make ends meet, while others face the loss 
of their careers all together. Many of these musicians have 
children or spouses who depend on them and who also suffer from 
these cutbacks. How could I respond when a woodwind musician 
asked me how she could afford to take her child to a doctor 
after her orchestra's proposed cutbacks?
    Our losses are everyone's losses. If musicians can't afford 
to stay in the profession, the Nation will lose its music. 
Musicians are small business people, patching together 
royalties, concert fees, and union benefits like session fees, 
pension, and health care to come up with a decent living. On 
Broadway, musicians face replacement by recorded music 
substituted for live music. In Hollywood, outsourcing film 
scores to musicians abroad threatens the livelihood of American 
musicians.
    Congress can make and indeed already has made a big 
difference in these musicians' lives. The American Jobs 
Creation Act helped our recording musicians by providing tax 
incentives for domestic film production. Pension reform 
legislation has also helped the AFM keep its pension plan 
available to musicians.
    And Chairman Miller, we thank you for your leadership on 
this important issue.
    Several members of this committee have cosponsored H.R. 
848, the Performance Rights Act, which gives recording artists 
the right to royalties when their performances are played over 
AM-FM radio. Recorded music makes money for radio, whereas 
radio doesn't pay performers a single cent. The Performance 
Rights Act would correct this inequity. And we ask you to 
consider supporting this legislation.
    Indeed, entertainment is America's second largest export. 
And music is essential to nearly all of its forms, either 
standing alone or as part of theater, film, and television. We 
can count the dollars, but we can't count the value of music to 
the American spirit. We saw it when the New York Philharmonic 
traveled to North Korea on a mission of diplomacy and artistry, 
and the Nation and the world were electrified by those images. 
And we see it here at home when my own WPA-founded North 
Carolina Symphony plays free concerts for tens of thousands of 
school children every year. I can't even go to the grocery 
store without people telling me how much it meant to them when 
the North Carolina Symphony played at their school. The value 
of these experiences cannot be measured and must not be lost. 
And on behalf of musicians everywhere, I thank you for this 
opportunity to address the committee.
    [The statement of Mr. Ridge follows:]

 Prepared Statement of Bruce Ridge, Chairman, International Conference 
 of Symphony and Opera Musicians, American Federation of Musicians of 
                 the United States and Canada (AFL-CIO)

    Good morning, Chairman Miller, Ranking Member McKeon and members of 
the Committee. My name is Bruce Ridge. I am Chairman of the 
International Conference of Symphony and Opera Musicians, or ICSOM, 
which is a conference of the American Federation of Musicians, or AFM, 
and I'm also a double-bassist in the North Carolina Symphony. On behalf 
of ICSOM's thousands of members and AFM's tens of thousands of 
members--comprising over 230 affiliated locals across the country, 
including Local 367 in Vallejo, CA and Local 424 in Richmond, CA in 
Chairman Miller's district--I thank you for your attention to the 
impact of the economic crisis on the working musicians and performers 
ICSOM and the AFM represent.
    As you have already heard, the arts help drive the economy, build 
communities, and educate future generations. Too often forgotten, 
however, are the artists who make these contributions possible.
    As an orchestral musician, I know how much people love to hear us 
play; and we love to play for them. The numbers bear out this popular 
commitment to the arts: Opera attendance has increased 40% since 1990. 
Classical music accounts for 12% of sales on I-Tunes, and music schools 
across the country are seeing an all-time high in numbers of 
applicants. America's talented young people are seeking opportunities 
to pursue their dreams of artistic excellence in record numbers.
    Musicians love their work. None of us do this for the money. It 
takes years of hard work and dedication to perfect our craft. But we 
must still pay doctors' bills, make rent, and put food on our families' 
tables.
    I've been fortunate in my career. I started playing at age 10, and 
I've worked steadily as an orchestral musician for 30 years, the past 
22 of which I've spent in the North Carolina Symphony. But finding this 
stability has not been easy. By age 15, I was a working professional in 
the Virginia Symphony. I would go from school to symphony, then play in 
late-night jazz clubs I was too young to legally get into otherwise. 
Back home by 3 am, I'd be sitting at a desk in school just a few hours 
later. Although I may have started a bit younger than others, my story 
is not atypical. Many classical musicians work several jobs, driving 
from town to town as members of a ``Freeway Philharmonic.'' Some 
members work in as many as four different orchestras--each a different 
two hour commute from home, and each with its own set of concerts, 
rehearsals, and community involvement.
    In today's economic climate, the challenges for working musicians 
are growing ever more serious. Some orchestras have already folded, and 
many more face the prospect of reduced seasons, layoffs, lower wages, 
and higher health care premiums. This is a national problem. The 
musicians of the Cincinnati Symphony, one of the world's finest 
orchestras, recently accepted an 11% pay cut. The Baltimore Opera 
Company has filed for bankruptcy. The Santa Clarita Symphony, in 
Ranking Member McKeon's district, cancelled its 2009 season. The 
musicians of the Honolulu Symphony are now seven weeks behind in 
paychecks. On a daily basis my phone rings with more news of yet 
another orchestra's financial crisis.
    For musicians, the losses are immeasurable. Some must sell their 
instruments to make ends meet, while others face the loss of their 
careers altogether. Many of these musicians have children or spouses 
who depend on them and who also suffer from these cutbacks. What could 
I say, when a woodwind musician whose orchestra faced reductions in pay 
and healthcare benefits asked me how she would be able to take her 
child to the doctor with the orchestra's proposed cutbacks?
    The problems extend beyond orchestral music. Musicians of all types 
are small businesspeople, patching together royalties, concert fees, 
and union benefits like session fees, pension, and health care to come 
up with a decent living. On Broadway, musicians face replacement by 
``virtual orchestras''--recorded music substituted for live music. In 
Hollywood, outsourcing film scores to musicians abroad threatens 
American musicians' livelihood.
    Congress can make--and indeed already has made--a big difference in 
these musicians' lives. The American Jobs Creation Act helped our 
recording musicians by providing tax incentives for domestic film 
production. Congress has also helped the AFM keep its defined-benefit 
pension plan available to its members, and we thank you for your 
leadership on this important issue.
    Congress continues to help working musicians. Several members of 
the Committee have co-sponsored H.R. 848, the Performance Rights Act, 
which gives recording artists a right to royalties when their 
performances are played over AM-FM radio. Most recording artists aren't 
household names. They're background performers and session musicians--
the behind-the-scenes artists who make music happen. Even the more 
well-known recording artists often have a narrow window of popularity; 
their songs are then played over the radio for years thereafter. But 
unlike other copyright holders, performing musicians never receive a 
single cent when their recordings are played over the AM-FM radio. The 
Performance Rights Act would rectify this inequity, and we ask you to 
consider supporting this important legislation.
    Entertainment--theater, film, video games, recordings, etc.--is 
America's second-largest export, and music is a central part of that 
economic enterprise. But music's value as a symbol of the American 
spirit is incalculable. We saw it when the New York Philharmonic, an 
ICSOM and AFM-represented orchestra, traveled to North Korea on a 
mission of diplomacy and artistry. We see it here at home when my own 
North Carolina Symphony--founded during another time of economic 
crisis, the Great Depression, as part of the WPA--plays free concerts 
for tens of thousands of schoolchildren each year. Our performers 
cherish at these opportunities, but they also need to make a living.
    Thank you for your attention.
                                 ______
                                 
    Chairman Miller. Thank you.
    Ms. Florino.

    STATEMENT OF JOANNE FLORINO, EXECUTIVE DIRECTOR, TRIAD 
                        FOUNDATION, INC.

    Ms. Florino. Good morning, Chairman Miller, Mr. Guthrie, 
and members of the committee.
    Thank you for the opportunity to testify before you on the 
value of foundation giving to the arts and potential threats to 
that giving.
    My name is Joanne Florino. I am the executive director of 
the Triad Foundation. We are based in Ithaca, New York, and we 
are a family foundation. We make over $9 million in grants each 
year, and a significant portion of our grantmaking goes toward 
arts education and cultural programs in the States of New York, 
North Carolina, and Florida.
    Additionally, I am here on behalf of the Alliance for 
Charitable Reform. The Alliance was founded in 2005 as a 
project of the Philanthropy Roundtable, which represents over 
600 private foundations across the United States. ACR was 
formed to respond to legislative proposals on Capitol Hill that 
affect foundations and the charities they serve.
    As I know you are aware, the arts community relies heavily 
on private contributions. According to recent data by the 
National Endowment for the Arts, private contributions 
accounted for 43 percent of arts organizations financing, or 
$13.5 billion, compared to 13 percent from government.
    The Triad Foundation is proud to be among the many 
foundations who give generously to these causes. And in our 
grantmaking, we seek to expand access to the arts, expand the 
audience to the arts and expand the pool of current and future 
donors for the arts. An example is a $1 million challenge grant 
which Triad made to ImaginOn in Charlotte, North Carolina. That 
grant stimulated a $1 million match by other donors in that 
city. ImaginOn is now the home of the Children's Theater of 
Charlotte and the public library of Charlotte and Mecklenburg 
County Youth Services Department. The opportunity to co-locate 
those two organizations has resulted in outstanding programming 
and more accessible arts and cultural education programs for 
the youth of Charlotte, North Carolina.
    As you know, there is a proposal in President Obama's 2010 
budget that could have a chilling effect on private giving, 
particularly as it relates to arts organizations. The proposal 
would essentially make it more expensive for individuals to 
contribute to charities, either directly or through 
foundations, by limiting the value of the itemized deduction 
individuals receive for making such gifts. In fact, Indiana 
University Center for Philanthropy estimates that the proposal 
would represent a 20 percent increase to the cost of giving.
    On behalf of both the Triad Foundation and the Alliance for 
Charitable Reform, I believe this proposal is a step in the 
wrong direction and comes at a time when Americans and the 
government are relying more, not less, on the nonprofit sector.
    The House Budget Committee released their budget proposal 
yesterday. And fortunately, their proposal excluded President 
Obama's proposed limit on the charitable deduction. It is clear 
that this proposal is troubling to both Members of Congress and 
the charitable community. I do want to thank the members of the 
House Budget Committee for excluding that proposal.
    Deteriorating economic conditions are forcing charities to 
face higher demands for services with fewer resources. When we 
look at human services, we see the example of the Midnight 
Mission Shelter in Los Angeles, which estimates that the 
downturn in the economy is leading them to provide15,000 more 
meals each month even though donations are down $200,000 from 
the previous year.
    The arts community faces the same challenges. The Wall 
Street Journal reported that the Baltimore Opera's board 
recently voted to liquidate the organization. And I have to say 
that those of us who work with nonprofits know that 
resurrecting a dead nonprofit is far more difficult than 
maintaining one.
    The Detroit Institute of the Arts reduced 20 percent of its 
staff as part of a $6 million budget cut. So this new budget 
proposal comes at a terrible time.
    According to a January 2009 study by MetLife, cash flow 
concerns have forced 40 percent of Americans to give less often 
to charities. And I have to believe that that is also causing 
the drop in arts audiences.
    On top of that, the Tax Policy Center estimated that the 
administration's itemized charitable deduction proposal coupled 
with higher rates on individuals would result in a $9 billion 
drop in giving for 2011, roughly triple the yearly budget of 
the American Red Cross.
    Who loses under this proposal? Those that rely most heavily 
on private giving. Organizations dedicated to arts education, 
music and cultural programs.
    Foundations have not been immune from financial losses 
either. Far from it. The philanthropic sector has sustained 
losses of 20 to 45 percent of its assets. Now more than ever it 
is time to encourage as much private giving as possible.
    We respectfully request that Congress enact their policies 
to do just that, and Congress can take immediate and 
responsible steps to put more dollars in the hands of 
charities.
    First, we ask that Congress reduce the excise tax private 
foundations pay on their net investment income from 2 percent 
to 1 percent. The two-tiered excise tax creates a disincentive 
for foundations to give more in times of great need, like now. 
A reduction in the excise tax rate for all private foundations 
would make more dollars available for charities.
    Second, Congress should extend and expand the popular IRA 
charitable rollover provision, which is scheduled to expire at 
the end of 2009. That provision drives more dollars to charity 
by allowing Americans over the age of 70.5 to contribute up to 
$100,000 from their individual retirement accounts to charity 
without having to declare the contribution as income for the 
year.
    Both of these provisions would stimulate and encourage 
additional giving to nonprofit organizations who are in 
desperate need of resources. By further incentivizing 
charitable giving and not discouraging it, Congress can ensure 
that Americans will continue to have access to the important 
and valuable services they rely on from our nonprofit sector. I 
appreciate the opportunity to appear before this committee and 
share my thoughts on these issues and welcome any feedback or 
questions you might have.
    Thank you.
    [The statement of Ms. Florino follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                                ------                                

    Chairman Miller. Thank you.
    Mr. Thomasian.

   STATEMENT OF JOHN THOMASIAN, DIRECTOR, NATIONAL GOVERNORS 
             ASSOCIATION, CENTER FOR BEST PRACTICES

    Mr. Thomasian. Thank you, Mr. Chairman, members of the 
committee. My name is John Thomasian. I am director of the 
National Governors Association Center of Best Practices.
    I appreciate the opportunity to appear before you today. I 
am going to talk briefly about a report we recently published 
entitled, ``Arts and the Economy: Using Arts and Culture to 
Stimulate State Economic Development.''
    As director of the NGA Center of Best Practices, our 
mission is to provide Governors with advice and innovative 
ideas on the full range of domestic policy issues, including 
economic development. With regard to State economic strategy, 
our approach has been to help Governors inventory their natural 
assets and identify the competitive industries in their States. 
When we do this, it becomes clear that creative industries are 
valuable components of all State economies.
    Estimates in the number of workers employed within these 
industries vary widely. We heard Representative Slaughter today 
talk about 5 million. That may be a lower bound. Others have 
estimated it to be as high as 40 million when you look at those 
who add creative content to product. A number of Governors have 
documented the economic impact of the creative industries.
    Arkansas, for example, found that the arts and cultural-
related firms employ nearly 27,000 individuals and generate 
almost $1 billion in personal income for Arkansas citizens.
    In North Carolina, creative industries infused $3.9 billion 
into the State's economy in 2007.
    And in Massachusetts, the cultural sector contributed well 
over $4 billion.
    Recognizing these positive impacts, Governors have led 
efforts to foster the arts and creative industries in their 
States, and they generally employ four broad tools: grants; tax 
incentives; financial aid to education and workforce training 
institutions; and technical assistance to artists and arts-
related businesses.
    Small, targeted grants are a frequently used tool. In 
Mississippi, for example, after Katrina, grants to artists in 
the order of approximately $5,000 were given to help the 
artisans and artists get back into their businesses. The 
program also included a series of workshops on business plan 
development and accounting to help artisans sustain their 
efforts.
    Tax incentives are another strategy Governors have used to 
spur cultural enterprises. Maryland designates arts and 
entertainment districts that receive property tax credits for 
construction of arts-related spaces, exemptions from the 
State's amusement and entertainment tax, and income tax 
deductions for artistic works sold by artists that reside 
within the district. As of 2008, at least eight other States 
had similar measures.
    Enhancing workforce skills through State universities and 
community colleges are another way Governors can assist the 
creative industries. Connecticut offers a film industry 
training program at several community colleges. The program 
teaches individuals the basics of feature film and episodic 
television production and also how to pursue entry-level 
freelance work in the industry.
    State universities also can bring artists and traditional 
industries together to stimulate new thinking and new lines of 
product. The University of California in Santa Cruz has 
partnered with local industry in the city of Santa Cruz to 
establish the Santa Cruz Design Plus Innovation Center. The 
center leverages local design talent to grow and attract 
design-based businesses. Innovation, such as the camera phone 
and carbon fiber bicycle frames, have sprung from these 
activities.
    Finally, some programs focus on simply providing technical 
assistance to artists and artist entrepreneurs who are 
establishing arts-related businesses. The Alaska Native Arts 
Program provides workshops and business courses in centralized 
locations to address issues important to any small business, 
such as quality control, market analysis, pricing, and Federal 
and State regulations. Other program activities help 
individuals network, identify funding opportunities and reach 
larger markets for their work.
    In conclusion, these examples and others highlight the fact 
that the Governors are leading efforts to capitalize on the 
benefits creative industries can offer. Creative industries can 
create jobs. They can attract investments. They can generate 
tax revenues and stimulate local economies. A creative 
workforce, as has been discussed here, also can contribute to 
product innovation and improve the competitiveness of 
traditional industries.
    I appreciate the opportunity to talk with you today. And I 
look forward to answering any questions. Thank you.
    [The statement of Mr. Thomasian follows:]

    Prepared Statement of John Thomasian, Director, Center for Best 
               Practices, National Governors Association

    Chairman Miller, Ranking Member McKeon, and members of the 
committee, my name is John Thomasian and I am the director of the 
National Governors Association Center for Best Practices (NGA Center). 
I appreciate the opportunity to testify before you today on the recent 
NGA Center report, Arts & the Economy: Using Arts and Culture to 
Stimulate State Economic Development and to discuss governors' work to 
maximize the economic benefits of the creative industries.
    The NGA Center develops innovative solutions to today's most 
pressing public policy challenges and is the only research development 
firm that directly serves the nation's governors. The NGA Center's 
policy experts provide governors advice and examples on a full suite of 
policy issues, including education, health care, homeland security, the 
environment, public safety, and economic development.
Overview
    Conservative estimates of the number of workers employed nationwide 
by arts and culture-related industries--also known as ``creative 
industries''--reveal more than 612,000 arts businesses, which employ 
nearly 3 million workers.\1\ These figures represent workers employed 
strictly by arts-centric sectors such as museums; performing arts 
(including music); visual arts; film, radio, and television; design and 
publishing; and arts schools and services. However, artists and other 
creative workers can be found in a multitude of industries, from 
tourism and agriculture to technology and consumer products. Broader 
definitions of the creative industries--or ``creative class'' as coined 
by Richard Florida--encompass those whose economic function is to 
create new ideas or creative content. By this definition, around 40 
million Americans--or 30 percent of employed people--are creative 
sector workers.
---------------------------------------------------------------------------
    \1\ Americans for the Arts, Creative Industries in 2008: The State 
Report, (Washington, D.C.: Americans for the Arts, 2008). 
www.americansforthearts.org
---------------------------------------------------------------------------
    Creative industries are far broader than many might initially 
assume. Today, you will find artists employed by numerous sectors 
critical to economic development and international competitiveness. The 
technology sector, for instance, includes workers who specialize in 
graphic and web design, animation, and media arts. Corporations that 
develop consumer products rely on artists to enhance the design, look, 
and feel of their products.
    In fact, creative workers are key to America's economic 
competitiveness in a global market. The market value of products is 
increasingly determined by a product's uniqueness, performance, and 
aesthetic appeal, making creativity a critical competitive advantage to 
a wide array of industries. Apple Corporation's popular iPod is 
developed through the company's iPod Engineering team, which includes 
not just engineers, but also two design teams, whose job it is to 
conceive, design, and produce new iPod products. The company includes 
``creativity'' among the six skills it most desires in its iPod 
Engineering employees.\2\
---------------------------------------------------------------------------
    \2\ Apple.com, Job Opportunities: Skills You'll Need, (Web site). 
http://www.apple.com/jobs/us/pro/ipod/skills.html.
---------------------------------------------------------------------------
    For the last several years, the NGA Center has been helping 
governors understand their state economies in terms of natural assets 
and clusters of competitive firms. Clusters are simply groups of 
related producers, suppliers, distributors, and intermediaries that 
draw advantages from their mutual proximity and relationships. Creative 
industries represent in several types of clusters, including specialty 
tourism, graphic and web design businesses, film making industries, and 
unique agricultural products (wine making for example).
    Today, governors recognize that creative industries are valuable 
components of state economies:
    <bullet> Creative and new media industries are growing in number 
and playing increasingly prominent economic and social roles;
    <bullet> Companies' decisions about where to locate their 
businesses often are influenced by factors such as the ready 
availability of a creative workforce and the quality of life available 
to employees; and
    <bullet> Many businesses today require collaboration with artists, 
designers, and media specialist to develop innovative products.
    In addition to strengthening a state's competitive edge and 
contributing revenue for states' economies each year, creative 
industries can help revitalize weak economic areas, attract a skilled 
workforce, and bring in tourism dollars. For instance, in Louisiana the 
tourism industry--the state's second-largest industry, employing around 
144,000 people--capitalizes on the state's rich history and culture as 
well as its unique musical and culinary heritage. The tourism industry 
partners with local musicians and artists each year to draw thousands 
of tourists to New Orleans, not for Mardi Gras, but for the New Orleans 
Jazz & Heritage Festival. The festival celebrates the cultural heritage 
of Louisiana through a showcase of music of every kind--jazz, gospel, 
Cajun, zydeco, blues, R&B, rock, funk, African, Latin, Caribbean, and 
folk to name a few--as well as through presentations of crafts by local 
artists, folklife exhibitions, and distinctly local culinary creations.
    In recognition of the impact creative industries have on state 
economic development, numerous governors have adopted a wide range of 
strategies designed to foster arts and culture and tap into the 
resulting economic benefits.
The NGA Center's Report and Findings
    In January, the NGA Center for Best Practices released a report, 
Arts & the Economy: Using Arts and Culture to Stimulate State Economic 
Development.\3\ The National Endowment for the Arts funded the report, 
which highlights the governors' efforts to maximize the economic impact 
of creative industries. A copy of the full NGA Center report is 
attached to my written testimony.
---------------------------------------------------------------------------
    \3\ Chris Hayter and Stephanie Casey Pierce, Arts & the Economy: 
Using Arts and Culture to Stimulate State Economic Development 
(Washington, D.C.: National Governors Association Center for Best 
Practices, 2009). http://www.nga.org/Files/pdf/0901ARTSANDECONOMY.PDF
---------------------------------------------------------------------------
    In summary, the NGA Center report found that governors are taking 
action to develop creative industries by supporting businesses and 
entrepreneurs; partnering with universities to train creative workers; 
encouraging collaborations between artists and traditional industries; 
improving local development by incorporating arts into community 
planning; and attracting tourists to their states by promoting cultural 
assets and products.
    The NGA Center report is not an advocacy piece for arts and 
culture. Rather, it aims to shed light on the creative cluster that 
many governors have identified through studies of their statewide and 
regional economies. Creative workers and businesses comprise a 
significant portion of the economy in many states. For example, 
creative industries in Arkansas employs nearly 27,000 individuals and 
generates $927 million in personal income for Arkansas citizens. 
Creative enterprises are the state's third largest employer--after 
transport and logistics and perishable and processed foods. In North 
Carolina, the wages and income of workers employed by creative 
industries infused $3.9 billion into the state's economy in 2006. And 
in Massachusetts, the 17.6 percent yearly growth of the cultural sector 
contributed $4.23 billion to the state's economy.
    As governors identify the extent to which creative industries 
contribute to state economies, they work to support creative industries 
through businesses, entrepreneurs, and networks and by developing a 
skilled workforce for the sector to draw upon. Governors incorporate 
arts and culture into community development plans through the use of 
grants, enterprise zones, and by supporting development of art space. 
Finally, they include arts and culture in state tourism strategies, 
particularly through efforts that promote unique cultural heritage or 
local products.
Developing Creative Industries
    Governors are leading many different approaches to develop and 
strengthen states' creative industries.
    North Carolina, for example, focuses energy on developing and 
expanding its crafts industry. HandMade in America in North Carolina--
established in 1993 with assistance from the North Carolina Arts 
Council--encourages and enables product development among local craft 
artisans. HandMade hosts a business boot camp to teach business 
planning, marketing, and entrepreneurship skills to artists. HandMade 
links more than 320 regional artists, crafts producers, bed and 
breakfasts, farm tours, restaurants, and other businesses through a 
200-mile-trail system that is part of a larger tourism marketing 
campaign.
    Ohio bolsters its arts-focused nonprofits through the Ohio Arts 
Council's Sustainability grant program, which provides two-year grants 
to nonprofit organizations that offer broad-based, ongoing arts 
programs within their communities. In Texas, the Commission on the Arts 
couples grants with technical assistance to help nonprofit arts 
organizations build organizational capacity and strengthen business 
management practices. Likewise, Virginia's Commission for the Arts 
provides Technical Assistance Grants to support nonprofit management 
and operations training.
    Creative industries encompass a number of small businesses and 
individual entrepreneurs as well as nonprofit arts organizations. In 
Mississippi, grants to artist-entrepreneurs emerged as a formidable 
post-Katrina revitalization strategy. The state's Business Recovery 
Grant Program, awarded $5,000 grants to small arts businesses, self-
employed artists, and craft enterprises affected by the storm. 
Recipients used the grants to purchase tools, equipment, and supplies 
to create and sell arts or crafts. The program, which included a series 
of workshops, including business plan development, accounting 
practices, and insurance needs, was featured in Governor Haley 
Barbour's Recovery Expo, a 2006 forum on recovery strategies and 
resources.
    Working with state universities and community colleges, governors 
also are bolstering the business acumen of artists, to maximize 
economic impact. In Alaska, the University of Alaska Rural Extension 
Program provides support for artist-entrepreneurs in rural communities 
through the Native Arts Program, which provides workshops and business 
courses to address issues important to entrepreneurs, such as quality 
control, market analysis, pricing, and federal and state regulations. 
Another example is Connecticut's Film Industry Training Program at 
Middlesex Community College, Norwalk Community College, and Quinnipiac 
University, offered by the Connecticut Office for Workforce 
Competitiveness in partnership with the Commission on Culture & 
Tourism. The program trains individuals who want to learn the basics of 
feature film and episodic television production and pursue entry-level 
freelance work in the industry.
    Increasingly, governors realize a competitive edge by encouraging 
collaborations among artists, designers, and product engineers in a 
variety of manufacturing and high-tech industries, especially in 
product design. These collaborations stimulate new thinking, encourage 
new product development, and make the most of a state's collective 
creative and business resources. For example, The University of 
California Santa Cruz, part of the state university system, partnered 
with local industry and the city of Santa Cruz to establish the Santa 
Cruz Design + Innovation Center. The center leverages local design 
talent to grow design-based business and attract new businesses to the 
area. It seeks to create opportunities for networking and 
interdisciplinary collaboration as well as a space for teams to tackle 
cutting-edge design challenges.
    In Wisconsin, the John Michael Kohler Arts Center Arts/Industry 
Residency Program offers artists access to industrial technologies 
through residencies, workshops, and tours. The primary component of 
Arts/Industry is a residency program at Kohler Company, the nation's 
leading manufacturer of plumbing hardware, where artists have the 
opportunity to spend two to six months creating works of art using 
industrial equipment and materials--pottery, iron, brass, and enamel--
and exploring forms and concepts not possible in their own studios. The 
Kohler Company, in turn, is given fresh ideas for its product lines. 
For example, Kohler's ``Artist Editions'' collection of surface-
decorated plumbing fixtures grew directly out of the Arts/Industry 
program.
Community Development
    Arts also can play a major role in community development and 
redevelopment through job creation and improving the quality of life. 
Governors are helping localities incorporate arts into community 
development plans through grants to communities, technical assistance, 
and financial or tax incentives. Governors also designate select areas 
as ``arts districts'' to target their cultural economic development 
dollars.
    Utah's Creative Communities Initiative awards grants to communities 
to help connect the arts to community building, civic engagement, 
community planning, and use of public space. These ``Utah Creative 
Communities,'' and received access to leadership training to help them 
leverage additional funding and community buy-in. The measurable 
economic impact from initiative projects was $4,500 to $13,500 per 
community.
    Another approach used by governors is the cultivation of strong 
local leadership for incorporating the arts into local development. The 
South Carolina Design Arts Partnership (SCDAP) is a joint initiative of 
the South Carolina Arts Commission and Clemson University. The 
initiative improves the quality of the state's built environment 
through design education and leadership training. South Carolina's 
institute provides training for the state's mayors and municipal and 
county planners for applying design principles to planning, 
development, and transportation.
    Tax credits are another strategy governors employ to spur economic 
activity through cultural enterprises. For instance, Maryland created a 
program that designates Arts and Entertainment Districts. These 
districts receive property tax credits for construction of arts-related 
spaces, exemptions from the state's amusement and entertainment tax, 
and income tax subtractions for artistic work sold by artists residing 
within the designated district. In return, the districts become focal 
points that attract businesses, stimulate cultural development, and 
foster civic pride. Maryland's Arts and Entertainment Districts have 
achieved significant increases in retail occupancy rates, property 
value, and tourist traffic. As of 2008, seven other states--Indiana, 
Iowa, Louisiana, New Mexico, Rhode Island, Texas, and West Virginia--
had similar policies in place, leading to the establishment of 58 local 
arts or cultural districts across the nation.
    The presence of cultural facilities is a key component of a 
productive infrastructure for economic activity through the arts. The 
Florida Division of Cultural Affairs' Cultural Facilities Program funds 
the construction, renovation, and acquisition of cultural facilities in 
Florida. One of the most recent cultural facilities programs among 
states is the Massachusetts Cultural Facilities Fund. Created in 2006 
as part of a major economic stimulus bill in Massachusetts, the fund 
aims to increase investments from both the public and private sectors 
to support the planning and development of nonprofit cultural 
facilities in the state.
Tourism
    A major focus of governors' art strategies is strengthening 
tourism. Many travelers pick vacation spots not only for their natural 
resources but also for their cultural offerings. Governors use a number 
of innovative strategies to tap into their states' unique cultural 
resources as tourism assets. By encouraging cultural tourism and 
marketing their unique arts assets, governors are attracting more 
visitors and augmenting the impact of tourism as a contributor to state 
economies.
    Through the New York State Heritage Area Program, New York is able 
to offer state-level coordination of its cultural, natural, and 
historical resources. The program includes 19 ``heritage areas,'' which 
encompass more than 425 municipalities. The Heritage Area Program aims 
to promote and preserve cultural and historical areas throughout New 
York through a state-local partnership. The New York State Office of 
Parks, Recreation and Historic Preservation offers a guide and a 
brochure to promote the state's heritage areas.
    Connecticut has recently instituted Culture & Tourism Partnership 
Grants to encourage interdisciplinary collaborations among arts, 
historical, film, and tourism organizations with the goal of helping 
localities build relationships and develop strategies to generate 
revenue and attract visitors. The Arts Division of the Connecticut 
Commission on Culture & Tourism administers the grants, which can be as 
much as $3,000. In 2006, projects funded by the grant program included 
an arts festival, a family-friendly museum exhibit ``trail,'' a film 
festival, a historic garden trail, a Halloween craft and event 
festival, and a theater package.
    Branding is an important marketing technique used in Montana to 
promote unique homemade and homegrown products of Montana artists and 
farmers. The Made in Montana (MiM) program was established in 1984 to 
help market products created, produced, or enhanced in the state by 
Montana residents. Likewise, the Kentucky Craft Marketing program uses 
a unique brand to help promote products crafted by Kentucky artists. In 
addition, the program supports efforts to market the products 
themselves to wholesale trade outlets, the tourism industry, and the 
public. It uses an annual exhibition that connects Kentucky artists and 
craftspeople with national buyers for their products and serves as an 
information clearinghouse to help artisans locate sales opportunities, 
materials, and funding.
    New Jersey is another state that uses branding to attract tourist 
dollars and bolster the sales and marketing of resident artists and 
arts organizations. Discover Jersey Arts is a statewide campaign to 
promote cultural tourism, build arts audiences, and generate revenue 
for arts organizations. Sponsored by the New Jersey State Council on 
the Arts and local partners, Discover Jersey Arts uses its Web site, a 
toll-free hotline, the Jersey Arts Guide, a Jersey Arts Ticket member 
card program, and other cooperative marketing programs to promote the 
Discover Jersey Arts brand.
    Other states, like New Mexico, attract visitors by promoting unique 
cultural destinations. The New Mexico Fiber Arts Trails is a 
collaboration between the state and a network of fiber artists. The 
program promotes New Mexico's heritage while boosting tourist traffic 
and creating opportunities for New Mexican artists. This program allows 
rural artists to practice their heritage and remain in their homes, 
which helps develop rural areas of the state.
Conclusion
    As these examples--and others highlighted in the NGA Center 
report--demonstrate, governors are leading efforts to capitalize on the 
numerous benefits creative industries can offer to state economies. 
Through creative industries, states can create jobs, attract 
investments, generate tax revenues, and stimulate local economies 
through tourism and consumer purchases. In addition, creative 
industries are playing a key role in the contemporary workforce, making 
creative contributions to industries' products and services, and 
infusing culture into community development.
    Thank you for having me here today to discuss the impact of 
creative industries on economic development and jobs. I look forward to 
answering your questions about the NGA Center Report.
                               attachment
    NGA Center Report: Arts and the Economy: Using Arts and Culture to 
Stimulate State Economic Development. Available at: http://www.nga.org/
Files/pdf/0901ARTSANDECONOMY.PDF.
                                 ______
                                 
    Chairman Miller. Thank you very much. Again, thank you to 
all of the witnesses for your testimony.
    Let me say at the outset that I may be in a minority here, 
but I think President Obama has raised a very fundamental 
question about fairness. That question is very simple: A family 
that doesn't itemize its deductions gives $100 to the arts, and 
it costs them $100. A family in the 25 percent bracket, it 
would cost them $75 to give that $100. And the family that is 
in the 35 percent bracket, it costs them $65 to give that $100. 
And the question is, should we cap it at 28 percent? Why would 
we subsidize wealthy people with taxpayer money to give more 
money to the arts than people who are working and make a 
decision, and in fact, I think about half of this comes from 
people in the lower brackets when you add it all up. Despite 
the remarkable generosity of wealthy people in terms of the 
arts, there is a huge slew of people there that are in that 
position. That is a debate for the Ways and Means Committee for 
the moment, not for us, and the Budget Committee last night. I 
just want to make that point that I think it is a question to 
be raised about tax fairness and that policy.
    Let me begin by thanking you. You make a remarkable case, a 
case that I have always believed has existed. And I see the 
case in my own district and obviously in California of the fact 
that the arts are a huge engine for economic activity however 
you want to describe it, and each of you have described it a 
little bit differently in terms of the economic activity to 
small businesses in Cedar City or to a large community in 
Miami-Dade, to that list of credits that you talked about, Mr. 
Daly.
    When you see the TV program, you see the movie or the stage 
play, you only see the people in front. And you realize what is 
going on behind the scenes. We used to have a great tour of New 
York City with the Arts Caucus for many years for Members of 
Congress so that people could go behind and see what it took to 
manage all of that.
    Why does music come so late in the credits?
    Mr. Daly. I don't know. It is a very interesting----
    Chairman Miller. It is such an integral part of a movie and 
can be overwhelming, and it comes so late. We will take the 
answer off the air, unless you really have got the answer.
    Mr. Daly. My brother-in-law is a very well known composer 
and has made his living for a long, long time composing music 
for television and for movies. He has been nominated for I 
think 23 Emmy awards, never won, and a Cesar award, which is 
the French Oscar. And he would be better equipped to answer 
that question.
    Chairman Miller. It is just something I wondered.
    Mr. Daly. But I don't know. It is too bad because, you 
know, honestly, music can make or break a movie. I actually saw 
a movie that my son did the other day. I saw it first at the 
Tribeca Film Festival, and it had a lot of music in it that was 
source music, music that set the tone. And of course, when it 
was released, they couldn't afford to pay for all that music. 
So it had a different score. And I have to say, honestly, it 
damaged the movie considerably. So I guess, I don't know, that 
is probably a bad thing to say. I shouldn't say that publicly. 
But you know, music is such an important part of film.
    Chairman Miller. Thank you.
    Mr. Bahr, in Cedar City, you have obviously made a decision 
that you are going to dramatically reduce the size of this 
generator that has brought, you say you think it is around $35 
million in economic activity to the community. That is mainly 
because of the loss of foundation assistance. You have talked 
to the foundations. Obviously, we have witnessed not only 
people's individual retirement accounts but foundation 
investments of all kinds have dropped dramatically.
    Mr. Bahr. There are actually three reasons. And our 
foundations have actually hung with us. But our board, in 
November, a lot of movers and shakers within the State of Utah 
and Las Vegas area, they said, with the economy doing what it 
is doing, we will not approve this budget unless you cut by 15 
or 20 percent. And so we went back in necessity, and then we 
started looking at our presales and our ticket sales and what 
the economy was doing. So the three reasons were: First of all, 
reductions in foundations; number two, the recommendation from 
the board; and just the reality of the economy.
    Chairman Miller. So the signals you were seeing when you 
look toward the summer season, the signals what you were 
seeing----
    Mr. Bahr. Correct. And knowing we wouldn't be good 
stewards, that we wouldn't be able to pay the others. And it 
was a very, very painful process. The hardest thing for me to 
read there, since we brought up music, it costs $50,000 for us 
to have a pit for a live orchestra. We, since our inception, 
have had a live orchestra. And to make that--I think that 
strengthens the case of the musicians over here--was terribly 
painful. But when we through the $50,000--when we were trying 
to feed nine shows, because we have nine shows, and those nine 
shows feed all of those different professions, we chose to cut 
and pay a synthesizer and a man to orchestrate it for $24,000. 
So it is a major artistic loss for us. But the major thing that 
caused us to do that was the board wisely saying, if we don't 
prepare for this, there will be a problem here.
    Chairman Miller. Thank you.
    I have a zillion other questions. But I know we are going 
to get jammed up so I want to give my colleagues time here.
    Mr. Platts.
    Mr. Platts is a cochair of the Arts Caucus. He had a 
conflict and was unable to be with Ms. Slaughter at the 
opening, but you are recognized for 5 minutes.
    Mr. Platts. Thank you, Mr. Chairman.
    First, I appreciate you holding this very important hearing 
and all of our witnesses and do regret that I wasn't able to be 
here for my cochair's testimony as well as the interaction with 
her Q&A.
    But I do appreciate all of our witnesses for both your work 
regarding the arts and your testimony, both written and oral, 
here today.
    If I had a chance to show you my office, it is what I call 
my children's private art gallery. I have got a 10-year-old and 
a 12-year-old. And it is my sanctuary down here. I am one of 
the lucky ones. I commute from my district in Pennsylvania each 
day. And down here, my office, between my kids' photos and 
their artwork, and it is interesting how it has progressed from 
finger painting to now pottery and more engaged pieces of art, 
paper-mache projects and things, and a great respite, including 
the performing arts.
    I meant to bring along, too, what I will call their 
playbills or programs. My two children, with children in two 
other families, have on a number of occasions put on their own 
performances with my wife and two other moms, and where they do 
invite family and friends to come in and actually watch 
performances. So we are very blessed in them having that 
exposure. Thankfully, they have gotten my wife's genes when it 
comes to artistic talent, not mine, because I don't have any.
    The testimony, I want to very much associate myself with 
Congresswoman Slaughter's testimony, and three points in 
particular. First, her focus on tourism and urban renewal. I 
have seen that in my hometown of York, Pennsylvania. A great 
mayor, Democratic mayor, Mr. Chairman, you will appreciate, who 
has done a great job of economic revitalization, and the arts 
community has been a critical part of that.
    The arts district that he has created has really 
revitalized that part of the town and gotten, not just artists 
there; they have a tax credit for artists who come and live at 
their place of business above their studios and things, but it 
has gotten people like my wife and I to get down and not just 
visit those art shops, but also spend money in restaurants and 
things in that area as well. So the investment is very 
important and has a good return.
    A number of you--and Mr. Daly, I think in your testimony, 
especially your second point, arts in education, the importance 
of exposing our children. We are lucky to be in a school 
district that my kids do have art every week, several times a 
week, and have had that since kindergarten, and complementing 
what we do at home. And we know how it has benefited their 
creative spirit and how that transforms itself then. So the 
focus on education, and Congresswoman Slaughter talked about 
that as well.
    And then the third point in her testimony, and it really 
relates, Ms. Florino, to your comments on the charitable giving 
and a concern I do have.
    And I certainly, Mr. Chairman, respect your concerns about 
tax inequity.
    And that is not just in the area of charitable 
contributions but lots of areas of inequity in our Tax Code and 
the complexity of it. But I would mention, I think, one thing 
in response, and that is, whether you--there may be an argument 
that someone in a higher bracket gets a better benefit because 
of their tax bracket. A lot of those dollars, I know in our 
community, go to benefit low-income children, programs that 
they could not otherwise afford to attend, Shakespearean 
program or others, and we target that assistance to low-income 
families and their children so they can come and participate in 
the arts. So there is a return, maybe not to the Tax Code, but 
to the performers themselves from the generous--and I guess 
longwinded introduction here to the question on the charitable 
aspect.
    Because I see this as a partnership where we need to make 
investments. And I will be testifying next week for an increase 
to NEA in the 2010 appropriations bill in joining my cochair 
and feel strongly about that. But I do see it as a partnership 
where it is not just the public doing it, meaning government in 
this sense, but partnering with the private sector. And that 
that is the charitable donations.
    And Ms. Florino, your testimony lays it out, the $9 billion 
projected loss from all charitable giving which will translate. 
My question really is to the other members of the panel who are 
involved with organizations that are a recipient of those 
dollars. Do you share that concern that if we go forward with 
that proposal, that your organizations and the artistic 
community in the broad sense are going to see a loss if we do 
embrace a tax policy that discourages charitable giving? And 
whoever would like to respond. Maybe we will start on the left 
and just go quickly. I realize I have used up most of my time 
with the question.
    Mr. Lynch. I would just point out that the arts, as I said 
in my testimony, are funded by a very fragile ecosystem of 
support, a very fragile ecosystem. Half of it from earned 
income; 40 percent from private sector; 10 percent from 
government. They need every break they can get from every 
sector, essentially. Earned income, we want a better economy. 
That is probably the most important thing. So the things that 
you are doing to create a better economy, more disposable 
income.
    Government is the great stimulator. And it has been that 
way for 50 years. And in my testimony, I talked about how that 
worked. We need the kinds of things that you have been doing 
there.
    But on the private sector, the information that comes--it 
needs to be looked at more as to what incentives work. And I 
have heard some different arguments here one way or the other. 
But whatever will continue to provide more dollars is what we 
need.
    Mr. Platts. In the interest of time, to the Chair----
    Chairman Miller. If you could supply the answer to Mr. 
Platts' question in writing, it would be helpful. We can 
contact you. We are going to vote soon.
    Mr. Platts. Thank you, Mr. Chairman.
    Chairman Miller. Thank you, Mr. Platts.
    If I might, if we could ask if members, if we go to 3 
minutes, we might get everybody in before the votes, because I 
have been given a note that we are going to have votes soon. So 
if you just limit yourself to one question or statement, I 
don't care what you do. But that way we may get through. And I 
know you came here interested and want to ask a question.
    Mr. Kildee.
    Mr. Kildee. Thank you, Mr. Chairman.
    I think that is a good idea. I want to expatiate on 
something you said. You talked about the importance of music in 
movies. Several months ago, my wife and I watched a program in 
which they showed a scene from a well-known movie without the 
music, and then with the music. And it was very revealing, 
really very--can you imagine watching Gone With the Wind 
without the music? That is an extremely integral part of that 
movie. So I can't play a note. I am probably tone deaf. But all 
my kids are musicians.
    And I yield back the balance of my time.
    Chairman Miller. Mr. Polis.
    Mr. Polis. Thank you, Mr. Chairman.
    I really appreciate this testimony today. In growing up, 
arts put food on my table. My mother, Susan Polis Schultz, is a 
poet, and my father is a graphic artist. And as a result of my 
life experiences and background, I have always been a strong 
supporter of the arts.
    And I particularly appreciate this testimony today 
regarding the diversity of the arts and also clarifying some of 
the commonly held misconceptions with regard to this very 
important sector in our economy.
    My only quick question is with regard to arts in rural 
areas. If somebody would like to address how sometimes one of 
the misperceptions is, when people say arts, they think cities 
only. A couple of you touched upon this. But talk about how 
this is really a national issue and how it benefits rural 
areas.
    Mr. Bahr. I am really, really glad you bring that up 
because that is a misconception. The arts are vibrant and alive 
and necessary in rural areas. And particularly by my testimony, 
I mean Cedar City, it is important. But to go even smaller than 
Cedar City, there are, I mean, community theaters and 
symphonies in those areas. And I want to echo the importance of 
Federal and State dollars, because they help leverage the much 
larger private dollars and especially in rural areas, 
particularly Idaho, Utah, Nevada.
    Mr. Ridge. If I could add to that, as a member of the North 
Carolina Symphony, we play all over the State. Perhaps one of 
the more gratifying things we do is, every year, we do a 
holiday pops tour where we are sure to get to the smallest 
communities in the State that raise money for once a year, and 
the entire town turns out. They cook for us backstage. And it 
is a huge event. So we play for, apart from all the school 
children all over the State, we try to reach every community in 
the State. It is a really remarkable situation to see.
    Mr. Polis. Thank you, Mr. Chairman, I yield back the 
remainder of my time.
    Chairman Miller. Congresswoman Fudge.
    Ms. Fudge. Thank you, Mr. Chairman.
    Thank you all. I have two very quick questions.
    Mr. Lynch, this is to you. Have you seen a shift over the 
years in response to your organization's arts and economic 
prosperity report? And what do you think that shift has been?
    And the second question is to Mr. Daly. You have 
recommended in your testimony that there needs to be a change 
in the discourse about how we deal with arts in our culture. 
And I would like to know how you think we can start that 
discourse.
    Mr. Lynch. I have definitely seen a shift as we have been 
using economic data. That is not what the arts are about. The 
arts are about inherent value, beauty, ugliness, insight. That 
is what they are about. But it is always a question that we get 
from the business community or the government. And as we have 
had more information about jobs and economics, we have seen at 
the State level, as has been talked about at the local level 
and at the Federal level, and more interest in investment, more 
understanding. So it has made a huge difference
    Mr. Daly. That is an interesting question. You know, I was 
listening to NPR the other day, and some Wall Street guy was 
asked to name something in the stimulus package that he thought 
was pork. And he went right to the $50 million for National 
Endowment for the Arts. And frankly, it pissed me off because 
it is such a minute portion of the budget. And that $50 million 
divided up among the many organizations will go to generate so 
much private giving and gives so many people so much joy, and 
it employs so many people. There are good investments and bad 
investments. And that is really a good investment.
    But I think the main thing that, you know, a lot of times, 
I think artists themselves, when they talk about the arts, they 
are a little bit embarrassed, and there is a little bit of 
confusion between what we see in the tabloid news and on TV 
programs that focus on entertainment and about the arts. You 
know that--when we see, you know, these young women sort of 
self-emulating on TV, which is horrible and a horrible example 
for my daughter, that does not represent the broader spectrum 
of artists who are out there. Most artists are hardworking, 
disciplined people who are vital members of our society.
    So we have got to start talking about it the way we talk 
about manufacturing cars and the way we talk about, you know, 
other important industries and not be sort of embarrassed and 
not confuse the tabloid elements of, you know, our artistic 
community with the meat and potatoes of it, you know, which is 
my point. It is on the--it is spinach. You know, it should be 
on the plate with the meat and potatoes.
    Ms. Fudge. Thank you.
    Chairman Miller. Mr. Hare.
    Mr. Hare. A quick statement and a quick question for you, 
Mr. Daly.
    I have a son, by the way, who has a masters degree in 
teaching theater and is an actor. So if anybody is looking for 
somebody, you want to give me a call later, I would appreciate 
it.
    Mr. Daly, I just want to know, given this bad economic 
climate that we are in, have you seen the effect it has on TV 
production of shows, like ``Private Practice''? And with these 
difficult times, who or what are the first resources that get 
cut?
    Mr. Daly. As with most businesses, nowadays it seems the 
first people to get squeezed are the smallest; the people that 
need the employment the most, that make the least money and 
whose income depends on paying their mortgage or their rent 
every month are the first people to get squeezed. And I don't 
think the entertainment industry, you know, the commercial part 
of it is immune to that. I think that happens in a lot of 
industries. But also there is an element of fear because there 
is less production. For instance, I mean, we could argue about 
this a lot. But when a company like NBC decides to put Mr. Leno 
on for 5 nights a week at 10:00, you know, that might be a good 
business decision on one level. But it puts literally tens of 
thousands of people out of work, not just the creative people. 
But that is, you know, 5 hours of television every week where 
the technicians, the carpenters, the painters, the designers, 
the actors, the drivers are not hired. So, you know, it is 
tough. And I don't want to imply--I mean, there are parts of 
the entertainment industry that are very healthy. You know, 
people still do very well. But the little guy is getting 
squeezed very hard and is very fearful.
    Mr. Hare. Thank you, Mr. Chairman.
    Chairman Miller. Congresswoman Clarke.
    Ms. Clarke. Thank you, Mr. Chairman, and thank you for your 
vision.
    Like Mr. Daly, I was a bit appalled when we went through 
the American Recovery and Reinvestment Act and the whole issue 
of funding for the NEA came up, and it was kind of held with 
contempt by many in the political circles and spheres and one-
upmanship. But I clearly recognize how vital a part of our 
economy the work of the community of arts and culture has been.
    I am from Brooklyn, New York, where it is a major source, 
not necessarily the high publicity end of things but certainly 
a major part of the growth and development, the stimulation of 
the communities that I serve. And so today's hearing is very 
vital, I think, to bringing to the forefront for people how 
critical a component of our lives and our culture, our arts 
actually are.
    I would like to raise the question with both Mr. Lynch, Mr. 
Daly, and any others who can respond in a quick manner, what do 
you think that the diminishing of our arts and support for it 
means for us on a global scale? As oftentimes, people forget 
that there is something called global competition. And for so 
long, the United States had been seen almost in a preeminent 
position, even though we interact across cultural and global 
lines, we have been very much a part of a movement that the 
rest of the world had embraced and then had come around with. 
So I would like to hear some feedback with regard to that.
    Chairman Miller. One of you is going to get 30 seconds to 
answer the question.
    Mr. Lynch. Mayors are critically interested in the arts 
because they stimulate competition, their city attracting 
people from other parts of the world. That is why. And 
international cultural diplomacy, visa laws, money at the State 
Department all mitigate against that because there is not 
enough of those things.
    Chairman Miller. Thank you.
    Mr. Tonko.
    Mr. Tonko. Thank you, Mr. Chair.
    The arts build the crescendos in life. Without that, life 
is flat.
    That being said, in our earliest settings in schools, while 
in the New York State legislature, I promoted certification 
only for those teachers who can exchange the message of the 
arts with students. What can we do to inspire greater 
participation in our schools, to grow that group of artists out 
there, because we are such a--I think we are devoid at times of 
cultivating the arts in our students?
    Mr. Bahr. That is a huge, huge, and I love--very passionate 
about that. Every kid has to perform, so it is about 
encouraging performance and creation of art at a young, young 
level. And I think you see that--there are some great programs 
that are out there right now that I am sure they can talk 
about, and also the NEA sponsors a number of programs that way, 
too. But just celebrating the programs that are presently 
existing out there in the schools, I am sure you can all think 
of a great teacher that you have had in the past who taught 
your students or taught you because of those performances.
    Now with regards to a Federal answer, I know statewide, we 
actually have, in the State of Utah, the arts are huge, and it 
is actually part of the Utah State Office of Education to train 
every teacher on how to use art in the classroom. It is part of 
our core. And it is required as part of the core. It is as 
necessary as math and science. And that needs to be done 
nationally. But the State of Utah, I think, is leading the 
charge that way and see that as a necessary vitamin, as 
necessary as the spinach that Mr. Daly shared.
    Mr. Daly. I also think that it is important for all of us 
on this panel, for politicians and for people in the business 
community, to start acknowledging the arts in our daily lives. 
I mean, I defy anyone in this room to look around them and not 
see something, a tie, these paintings, you know, the curtains 
behind the chairman, every one of these things, designed by an 
artist. And the chairman himself, a work of art.
    These things are tied in with technology and design and 
innovation and manufacturing. It is not something else. It is 
everywhere we are.
    Chairman Miller. Ms. Florino, you wanted to quickly say 
something.
    Ms. Florino. Yes, very quickly. I think one of the problems 
is we have kept the arts in a silo and we haven't seen the 
impact on math education and English education. And we know 
that there are plenty of studies that prove that, in fact, 
musical skills and math skills are very connected.
    And I just want to say that I think we as a foundation, 
along with many individual donors, have been looking to out-of-
school experiences to make that integration. One example I want 
to give you is a family reading partnership program in Ithaca, 
New York, which we have funded for a long time and which would 
be categorized in many places as a literacy program. But the 
director of that program has been insistent that children not 
only be given books at birth and given books in early years but 
that they be given beautiful books. So the art of those 
children's books has been as important in generating their 
interest in reading as the words on the page. I think the more 
of that we can do, the better we will be in the future.
    Chairman Miller. Ms. Woolsey.
    Ms. Woolsey. Thank you.
    You are a perfect straight woman for me, Ms. Florino. One 
of our other efforts here on this committee is elementary, 
secondary education and which we will be reauthorizing. 
Secretary Dick Riley under Bill Clinton has been very--and many 
others--instrumental in our writing art and music back into the 
curriculum. And so knowing that, I am going to ask, Mr. Daly 
and any of you, when I go to the movies and I see the credits, 
because one of our responsibilities here is equality for girls 
and women, the ratio of man to woman is just not equal at all. 
I want to know why that is. Are we doing something in our 
education system? Is NEA doing something that is making it way 
more possible for men to survive? Or do you know anything about 
that?
    Mr. Daly. Well, that is a tough one. I do know that, since 
the dawn of drama, men have dominated, you know, theater and 
storytelling. And I don't know why that is. Shakespearean plays 
are predominantly men. Greek plays are predominantly men. That 
is a good and, you know, really valid question. I am not sure 
what the answer is.
    Ms. Woolsey. Does anybody have----
    Mr. Bahr. Refreshing, though, every one of our stage 
managers are females. And I think there is a reason for that. 
They know how to manage people. They know how to get stuff 
done. I don't think it is an accident. Occasionally, you will 
have a male stage manager that will sneak in there. I do think 
that is something that needs to start down at that lower level, 
elementary to say, hey, women, this is something you can do. 
This is an industry that you can do, too.
    Ms. Woolsey. It isn't because stage managers are underpaid?
    Mr. Bahr. Actually, all of our stage managers that work at 
that level are equity stage managers; they receive the same 
wage.
    Mr. Daly. I also should say that my show, ``Private 
Practice,'' is women-run. It is an estrogen heaven over there.
    Ms. Woolsey. I watch it. I love it.
    Mr. Daly. Women are running the whole show over there.
    Chairman Miller. They often ask the Speaker of the House 
how she can run the Democratic Caucus in the House. She says, 
mother of five, grandmother of seven, now, I think, and I use 
my mother-of-five voice every now and then. So it seems to 
work.
    Mr. Platts, any final comment?
    Mr. Platts. Again, just my thanks for your hosting the 
hearing and all of the great testimony we have received. 
Hopefully partnering all together, we will do right by the 
arts.
    Chairman Miller. Let me thank all of you for your 
testimony. We wanted to make and the President wanted to make 
and the Speaker wanted to make an important statement about the 
arts in the stimulus act, that this is an important part of our 
economy. This act was about going to those sectors of our 
economy where we could stimulate economic activity, where we 
could have a multiplier effect, whether it was construction 
jobs or in teaching jobs or in the arts. And that is what we 
wanted to be able to do. I think we did it right. Those who 
suggested that this was $50 million in pork, those are the same 
people that said it was pork to try and repair and keep from 
sinking into the Potomac River the Lincoln Memorial and the 
Jefferson Memorial, so their value systems kind of coincide and 
meet at that point.
    This has been a wonderful opening night, if you will. This 
is in a series of hearings. We are going to move on to 
education. We are going to move on to other aspects of the arts 
in our society and the importance of them. And thank you, all 
of you, for the work you do with education groups in your areas 
and in your cities and your industries.
    It is a remarkable thing to watch children be engaged with 
the arts. And it is not just studies. I spend a lot of time in 
classrooms around the country. I can take to you where the 
music and arts have changed the educational performance and the 
opportunities for those young children. They say the two best 
ways to engage children in fractions is with a ruler in wood 
shop and a baton in a music class. And then they will start to 
appreciate and understand fractions, which they always seem to 
stumble on, as I did. No wonder I was a bad French horn player.
    Geez, all these things that get revealed up here sitting as 
chairman. This is tough.
    But thank you so much for your time. It is valuable. It is 
important to us, and we are glad that you shared it with the 
committee.
    Before adjourning, I have got to make a unanimous consent 
request to open the record of last week's hearing on the 
importance of early childhood development, later in the arts, 
through Tuesday, March 31, 2009, 14 days from the date of the 
hearing, during which members may submit extraneous material.
    So I don't have to do that in the next hearing, I will 
request today, without objection, all members will have 14 days 
to submit extraneous material and questions for the hearing 
record.
    Members may want to submit questions to you. We hope that 
you would agree to respond to those questions. And again, thank 
you so much for what you do for the arts, for our communities, 
for our economy and for this committee with this morning's 
hearing and your participation.
    With that, the committee will stand adjourned. Behind you, 
what is going on is it is a little bit like off-track betting 
here. I am trying to see if I can beat the other 208 people who 
haven't voted yet. Although the clocks run out, the race is 
still on. And because I am old and fast, I think I can still do 
it. Thank you very much.
    [The statement of Mr. McKeon follows:]

Prepared Statement of Hon. Howard P. ``Buck'' McKeon, Senior Republican 
                Member, Committee on Education and Labor

    Thank you, Chairman Miller and good morning.
    One of the benefits of living in a free society is that its 
citizens are free to create.
    This freedom has given birth to art forms that Americans--and 
people around the world--have enjoyed for decades.
    Take music: Blues. Country. Jazz. Rock 'n' roll. All of them come 
from America.
    Then there's Broadway and Hollywood. For more than a century, 
American films, plays, musicals and TV shows have been loved and 
respected the world over.
    Mr. Chairman, we should be proud of our artists, but not just for 
their creative achievements. After all, they are in show business. It's 
a real industry that has ups and downs like any other.
    And what helps support this industry?
    In large measure, non-profit and charitable foundations.
    When you look beyond the superstars with their mansions and their 
millions, you find that many talented working artists across the 
country are supported this way.
    Experts say the $43 billion that foundations give out help generate 
more than a half trillion dollars in household income. It also 
contributed some $145 billion in tax revenues.
    That's music to a lot of people's ears--especially in these times. 
But it seems President Obama wants to stop the music and send the band 
home.
    The Obama Administration's new budget would limit charitable 
deductions in the tax code.
    These tax deductions allow--even encourage--people to give to 
foundations and charities. Whether they contribute 25 dollars or 25 
million, a deduction applies to them.
    And foundations need these donations. Usually, individual 
contributions are often their sole source of income.
    So, if you limit charitable deductions, you limit support of the 
arts--and other worthy causes.
    It's that simple. But don't take my word for it.
    Ask Martin Feldstein. He's an economics professor from Harvard 
University. He wrote an op-ed piece in The Washington Post yesterday 
about this very subject.
    In his article, Feldstein says President Obama's proposal would 
effectively transfer $7 billion a year from the nation's charitable 
institutions to the federal government.
    This transfer, Feldstein says, would basically be a nationwide tax 
on charities.
    After speaking with Professor Feldstein, go talk to the Association 
of Performing Arts Presenters.
    In a report out this month, the association says that more than 
half of the performing groups with theaters and facilities have failed 
to meet their fundraising goals.
    As the Obama Administration tinkers with the tax code, it's 
important that we, as members of Congress, understand how it affects 
non-profits and foundations.
    Whether it's supporting a local theater group, homeless shelter or 
children's hospital, non-profits and charities play a starring role in 
American life.
    We should create policies that best increase philanthropy and 
private resources available for charities, including support of the 
arts.
    Finally, we should highlight how private charities are independent, 
effective and innovative--just like American artists, including the 
ones with us today.
    Thank you, Chairman Miller. I yield back.
                                 ______
                                 
    [The statement of Mr. Hodes, submitted by Mr. Miller, 
follows:]

Prepared Statement of Hon. Paul W. Hodes, a Representative in Congress 
                    From the State of New Hampshire

    I would like to thank Chairman Miller and Ranking Member McKeon for 
holding this hearing on the importance of arts and music in the 
economy. Investing in the artistic culture of our nation is critical to 
preserving the incredible diversity in America and bolstering our 
creative economy. The artistic community is an essential part of the 
American workforce that creates jobs, generates revenue, and brings 
communities together.
    From classic poetry to modern opera to reggae, the arts create a 
unique space for expression, passion, and education. Artists express 
their ideas through new mediums and innovative ways to interact with 
the community.
    In previous difficult economic times in America, the Federal 
Government has recognized the importance of the creative economy, and 
supported artists and those who work in the arts. As a part of the New 
Deal, the Federal Art Project was established in 1935 and helped to 
create over 5,000 jobs for artists, including painters, sculptors, 
muralists and graphic artists. The project produced over 225,000 works 
of art for the American people across the country. The works can still 
be seen in the murals that adorn the walls of United States Post 
Offices all over the country.
    I strongly supported the $50 million for the National Endowment for 
the Arts that was included in the American Recovery and Reinvestment 
Act. This funding will help members of the artistic community keep 
their jobs and maintain the creative economy. According to the NEA, 
nonprofit arts organizations and their audiences generate $166.2 
billion in economic activity every year, support 5.7 million jobs, and 
return nearly $30 billion in government revenue every year. The NEA 
additionally reported that for every $1 billion spent by nonprofit arts 
and culture organizations nearly 70,000 full-time-equivalent jobs are 
created.
    As we work together to help strengthen our economy, encouraging art 
and artists can help develop and allow for cultural centers to continue 
thriving. In New Hampshire, I worked hard with my community to rebuild 
the Capitol Center for the Arts and helped revitalize downtown Concord. 
The Capitol Center for the Arts is a performing arts center and has 
consistently brought jobs, created an artistic outlet, and has been a 
central location for events and programming for the community, 
bolstering the Concord economy.
    The Capitol Center for the Arts has also faced challenges in this 
difficult economy. In addition to cutting their workforce by 10 
percent, the Capitol Center has also had a 20 percent drop in ticket 
sales this year. As a result, the artists, backstage crews, 
restaurants, hotels, and local businesses are also being negatively 
affected and losing revenue.
    This example is one of many artistic communities around the country 
which is feeling the pinch of our economic downturn and only 
demonstrates further why it is crucial that we continue to support and 
fund the arts. Arts funding encourages local economic growth and 
infuses money directly into our communities. As Congress continues to 
increase job opportunities in our cities and towns across the country, 
it is essential that artists and the creative economy not be 
overlooked. Artists not only enrich the cultural heritage of our 
country, but also bring Americans together to a shared community and 
experience.
    I appreciate the attention the Education and Labor Committee has 
brought to the important topic of arts and music in our economy. With 
the right support, artists can continue to bring jobs and revenue to 
our country during these tough economic times.
                                 ______
                                 
    [Additional submissions of Mr. Platts follow:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                                ------                                


    [Press release of the Association of Performing Arts Presenters]

  Field at a Glance: Economic Impact on Arts Presenting Activity and 
          Attendance Stabilize While Fundraising Is a Concern

    Arts Presenters' latest tracking survey* of presenting 
organizations and performing arts facilities examined the continuing 
impact of the economic downturn on the field of arts presenting during 
the month of February 2009. The scope, focus and breadth of this survey 
explored the economic impact on activity, ticket sales and fundraising 
among `presenter' members of the Association of Performing Arts 
Presenters. The response pool for the recent survey includes 173 member 
organizations, of which 141 member organizations are presenters with 
their own facilities. Our members and the wider field are concerned 
with the overall impact the current economic shift has on the 
performing arts field's operating environment and the increase in the 
difficulty of resolving many of the challenges presenting organizations 
had already been facing on the whole. These challenges include audience 
erosion, organizational sustainability and capacity building, adaption 
of multi-media and new technologies and leadership development.
---------------------------------------------------------------------------
    *AMS Planning and Research (Fairfield, CT) conducted this survey
---------------------------------------------------------------------------
    Managing Change: During the month of February, approximately 30% of 
presenters with facilities made some change to their production 
calendars. Over 30% either reduced or eliminated planned productions 
and a majority (57%) has reforecasted revenue, while 58% have reduced 
some planned expenditures. Nearly 40% of respondents instituted a 
hiring freeze; 11% have reduced fulltime headcount; and 14% reduced 
part-time headcount.
    Fundraising: Among presenters with facilities, over 50% reported 
that fundraising efforts have failed to meet budgeted goals in one or 
more categories. Corporate philanthropy decline has affected 54% of 
this sample population, while 44% indicated they have not been able to 
meet individual fundraising goals. Similarly, 40% of those surveyed 
were unable to meet financial goals through foundation giving, 
government support and/or sponsorship contributions.
    Resident Company Programming: In all cases except theater, the 
majority of resident organizations in performing arts centers are 
reportedly behind their budget forecasts.
    Arts Presenters' Member Information:
    <bullet> Representing an industry of more than 7,000 nonprofit and 
for-profit organizations, Arts Presenters members hail from all 50 
states and 28 countries on six continents across the globe;
    <bullet> Member organizations range from large performing arts 
centers in major urban cities, outdoor festivals and rural community-
focused organizations to academic institutions, artists, artist 
managers, agents, as well as independent producers, producing and 
touring companies;
    <bullet> Our membership includes a range of organizations with 
multi-million dollar budgets to individuals who are artists or 
performing arts professionals; two-thirds of the membership and wider 
presenting field are organizations with small budgets under $1.5 
million (the largest segment of which is under $500,000)
    <bullet> Arts Presenters members bring performances to more than 2 
million audience-goers each week and spend in excess of $2.5 billion 
dollars annually;
    <bullet> Arts Presenters represents a diversity of fields 
including: all forms of dance, music, theater, family programming, 
puppetry, circus, magic, attractions and performance art.
                                 ______
                                 
    [Additional submissions of Mr. Lynch follow:]

                    Folk & Traditional Arts Summary

    The health of the nation's living cultural heritage is at risk.
    This is the message of a February 2009 national survey of the field 
of folk arts conducted by the Alliance for California Traditional Arts 
and the Fund for Folk Culture. 487 respondents (294 non-profit 
organizations and government agencies, 158 individual artists, and 35 
independent folk arts specialists) from 44 states provided data leading 
to these preliminary conclusions:
    1. Overall income is declining and job losses are increasing among 
artists, practitioners, cultural organizations, and funders. 74% of all 
respondents reported a decrease in overall income for 2008. 86% expect 
overall income to decrease in 2009. Organizations reported 7% loss of 
full-time jobs in 2008 and expect a 9% loss in 2009 from layoffs and 
attrition. Nonprofit organizations with budgets under $100,000 are 
experiencing the earliest and greatest losses, and have the least 
capacity to respond.
    2. A field already stretched thin is becoming increasingly fragile. 
50% of the organizations responding have budgets under $100,000; 80% 
under $500,000. 38% have no cash reserves, and only 11% report cash 
reserves for more than 6 months. 11% have suspended operations, or are 
considering suspending operations or merging with another organization. 
91% of folk arts programs at government agencies are experiencing 
budget cuts or expect cuts, while the demand for their support from 
artists and nonprofits has increased sharply.
    3. Traditional artists, cultural practitioners, and contractors are 
losing income and turning to other income-generating activities. 82% of 
artists report a decrease in overall income. 65% report a decreasing 
demand for services, the single most important source of income for 
artists. 37% are seeking work outside the arts.
    4. Revenue and job losses are causing sharp reductions in services 
and programs. Job losses in small-budget organizations have been the 
most severe, with an estimated loss of over 43% of the work force 
between 2008 and 2009. Organizations with budgets over $1 million are 
also struggling: 80% report decreases in income in 2008, rising to 90% 
in 2009. The top two sources of income for nonprofits are government 
and foundation grants. 68% of nonprofits report decreases in 2008 grant 
funding; thus far in 2009, 83% report declines. Cost--cutting by 
nonprofits is weakening the capacity of organizations: 25% report 
reductions in force and 33% reductions in programming.
    5. The support network of funding agencies and intermediary 
organizations is diminishing. State arts agencies, the primary funding 
and support resources for nonprofits involved in the folk arts, are 
facing drastic reductions in funding, staff positions and services. 50% 
of government and nonprofit funders report an average of 18-20% 
declines in their funding from 2008 to 2009; most are expecting 
additional cuts in 2010. 4 cite 90-100% cuts. The Fund for Folk 
Culture, the only national nonprofit providing dedicated grant support 
to the folk and traditional arts (including the Artists Support 
Program), is closing its doors after 17 years. Four other private 
foundations providing dedicated regional support for individual folk 
artists report declines in their support. One of the four is putting 
its program on hiatus, pending further review.
Unique Challenges for the Folk Arts
    The entire nonprofit arts sector is facing drastic declines, but in 
the folk arts, funding and services are often administered by a single 
position housed in a state arts agency or nonprofit organization. 
Therefore, when that single position is lost--and this is happening 
more and more often--an entire state's delivery system of grants and 
services is gone. The majority of artists and professionals in folk 
arts work in grassroots organizations with budgets under $100,000, and 
these smaller organizations have been experiencing the earliest and 
greatest negative economic impacts. While many continue to survive, as 
they have in the past, with high rates of volunteer support, the survey 
indicates that volunteerism rates are down as people increasingly need 
to take on extra paid work. Without budget cushions or cash reserves, 
these diverse dance and music ensembles, crafts collectives, and 
community-based presenters are in the greatest danger of disappearing 
unless effective funding interventions are enacted quickly. Local arts 
councils and other mainstream arts agencies often do not adequately 
serve these grassroots groups, so special strategies will be necessary 
to address their needs via the network of public folk arts programs 
serving at local, state and national levels.

    Submitted by Julia Olin, National Council for the Traditional Arts 
(NCTA), on behalf of Preserve America's Cultural Traditions (PACT), a 
consortium of major folk arts organizations. To obtain a copy of the 
full survey report, contact Amy Kitchener of the Alliance for 
California Traditional Arts at 559/237-9813 or <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="e1808a88958289a1808295808e8f8d888f84cf8e9386cf">[email&#160;protected]</a>
                                 ______
                                 

 Impact of the Economic Downturn on the Music Education Workforce and 
                    Concepts for a Positive Response

Observations
    1. The workforce of professional music educators in the schools is 
subject to the same contracts, and hence the same economic issues, that 
face educators in other subjects. This means that shortfalls in local 
property taxes (still the primary source of school funding across the 
United States) can have a devastating effect on local schools, and 
hence the music education workforce. The American Recovery and 
Reinvestment Act (ARRA) has devoted significant Federal funds to 
ameliorate this problem, but the strength of public schools is still 
dependent largely on the strength of local economies in general. The 
number of layoffs that have been experienced in the current downturn is 
unknown; according to a survey of music supervisors in local districts 
conducted by MENC in November/December 2008, the majority of schools 
are planning cuts in support and organizational staff for the coming 
year. Note that this was an informal web survey, so should not be 
understood as limited in accuracy.
    2. The workforce of professional music educators in the schools may 
be, in some cases, subject to cuts that go beyond those for the 
education workforce in general. According to the survey noted above, 60 
percent of respondents expect cuts to effect music programs 
specifically--and 15 percent expected those cuts to disproportionately 
target music programs.
    3. Anecdotally, reports from music teachers in the field lead us to 
believe that the current environment, while not leading necessarily to 
wholesale cuts of entire programs, is leading to cutbacks in services 
to children. For example, instructors who were on 11-month contracts, 
allowing them to provide summer music experiences to students, are 
being told in some cases that they are now limited to 9-month 
contracts. This means less income for them and less education for the 
students.
    4. Some principals are resorting to offering commercially-provided 
afterschool experiences in lieu of education during the day. (See the 
February 2009 GAO study, ``Access to Arts Education,'' which was based 
on an elementary-school sample.) It is unclear whether this method will 
allow a significant number of students to gain the benefits of music 
education in light of other commitments on their afterschool time; also 
unclear is the extent to which this will impact the employment of music 
educators.
Concepts for Positive Response
    1. Make certain that all local decision-makers understand that ARRA 
education monies are applicable to education in music as well as to 
other core academic subjects. Strong music programs help schools attain 
well-accepted stimulative goals, such as high graduation rates, high 
attendance rates, and high levels of educational attainment. This 
message needs to be sent as strongly as possible to local decision-
makers, who are faced with difficult fiscal decisions.
    2. Require that the status of arts education programs be reported 
to parents, so that local communities can make informed decisions about 
the provision of arts education to their children.
    3. Ensure that all after-school programs (at least those funded by 
the Endowment) supplement, but do not supplant, in-school offerings. 
This is essential because afterschool programs are not always available 
to all students and undermine the statutory ``core academic subject'' 
status of the arts.
    4. Refine, as indicated by data from the Endowment survey currently 
in the field, the process for selecting and reporting grants in 
education. Expand the research process by looking at best practices in 
professional development of arts educators in general.
                                 ______
                                 

               Impact of the Economic Downturn on Museums

  Why Museums Are Vital to Communities, Local Economies and Education

    <bullet> Museums employ more than a half million Americans.
    <bullet> U.S. museums spend more than $14.5 billion a year, 
spurring local economic growth.
    <bullet> There are 850 million visits per year to American museums, 
more than the attendance for all professional sporting events and theme 
parks combined (478 million in 2006).
    <bullet> More than one-third (35%) of U.S. museums are always free 
to the public, and more than 97% of the rest offer discounts, special 
fee schedules, or free admission days.
    <bullet> Museums spend more than $1 billion annually on K-12 
educational programming, and receive more than 90 million visits each 
year from students in school groups.
    <bullet> Museums tailor educational programs in coordination with 
state and local curriculum standards.
Examples of How the Economic Downturn is Affecting Museums
    <bullet> The Pacific Asia Museum in Pasadena will cut its budget by 
20% this year--and will have to raise its $7 admission fee and begin 
charging for community education programs.
    <bullet> The Bowers Museum in Santa Ana will cut its budget by 10% 
by laying off employees and canceling or delaying exhibitions.
    <bullet> To close a $2 million budget gap, the Mystic Seaport is 
laying off at least a dozen employees. Nearby Mystic Aquarium is also 
laying off 12 people.
    <bullet> The Museum of Florida History has suffered a cut back in 
staff and have had to pull back on ``outreach'' programs, some that 
previously reached senior centers and retirement homes.
    <bullet> The New York Coalition of Living Museums (CLM), which 
provides support to 112 state organizations is facing a potential 55 
percent cut in its budget. Living collections are at great risk with 
budget cuts, because a living museum cannot simply close a wing.
    <bullet> At the New York Botanical Garden, earned income is down a 
whopping 20%. The garden is planning to reduce its full-time workforce 
of 480 by 10% and has already eliminated about 30 jobs. The rest will 
be achieved through attrition and layoffs, canceled exhibitions and 
reduced hours.
    <bullet> 29 historic sites in Ohio have had to reduce access by two 
days a week.
    <bullet> The Virginia Air & Space Center is seeing record 
attendance, but corporate giving and school trips--which were hard hit 
by high gas prices earlier this year--have faltered. They will now be 
closed on Mondays, restricting public access.
How Museums Are Part of the Solution
    <bullet> The Miami Art Museum is collaborating with Miami-Dade 
County schools to offer free school programs and teacher workshops to 
meet curricular guidelines. They're also looking for other ways to help 
the students get there, as well as ways of getting art to students in 
the schools.
    <bullet> The Children's Museum of Indianapolis is expanding its 
offerings for under-served (ACCESS pass providing $1 admission for 
those on statewide assistance, food stamps, etc.,) in partnership with 
city/county and state.
    <bullet> The Detroit Historical Society raised $190,000 at their 
annual gala to provide admission, tours and transportation to schools 
in the Detroit area that cannot afford school trips.
    <bullet> The Minnesota Children's Museum is working to maintain its 
access program which includes admitting \1/3\ of its visitors at free 
or reduced admission and partnering with over 50 community groups and 
schools.
    <bullet> The Schenectady Museum & Suits-Bueche Planetarium is 
offering free memberships to low-income families for each new paid 
membership they receive.
    <bullet> The Stuhr Museum and the Hastings Museum competed during 
the holidays to collect the most nonperishable food for local pantries 
in a food drive called ``Sharing Through the Season.''
    <bullet> The Idaho Museum of Natural History offered free admission 
to anyone who brought in a new unwrapped gift for the Toys for Tots 
program this past holiday season.
    <bullet> The Please Touch Museum in Philadelphia, PA increased 
outreach efforts and focused on helping other organizations whose 
funding has been substantially cut. The museum--which has long worked 
to serve low-income and minority communities--created new programs and 
revamped existing ones to reach even broader portions of those 
communities more effectively. Additionally, the museum is working with 
both the City of Philadelphia and Free Library of Philadelphia to use 
museum programs to meet community needs that will result from the 
announced closures of 11 branch libraries in 2009.
                                 ______
                                 
    [Questions for the record and their responses follow:]

                                     U.S. Congress,
                        2181 Rayburn House Office Building,
                                     Washington, DC, April 1, 2009.
Mr. Tim Daly, Co-President,
The Creative Coalition, New York, NY.
    Dear Mr. Daly: Thank you for testifying at the March 26, 2009 
hearing of the Committee on Education and Labor on ``The Economic and 
Employment Impact of the Arts and Music Industry.''
    Representative Jared Polis (D-CO), member of the Early Childhood, 
Elementary and Secondary Education Subcommittee, member of the Healthy 
Families and Communities Subcommittee and member of the Health, 
Employment, Labor and Pensions Subcommittee has asked that you respond 
in writing to the following question:
    As a result of my life experiences and background, I am a strong 
supporter of the arts and have been a longtime advocate of arts 
education. My father is an artist and my mother is a poet. In addition 
to their inherent intellectual, spiritual and creative contributions 
and effects, the arts are clearly an economic engine that strengthens 
and revitalizes our communities. The multiplier effect of arts spending 
is impressive: every dollar in cultural spending returns nine in 
federal income taxes. And every National Endowment for the Arts (NEA) 
dollar leverages seven dollars from other sources. In my district, we 
have 2,670 arts-related businesses that employ 8,292 people. These 
businesses stimulate innovation and play a critical role in building 
and sustaining our economy: they employ a creative workforce, spend 
money locally, generate revenue for government, attract tourists and 
enrich our local culture.
    1. What can we do to support artists and workers employed in the 
creative industries during these difficult economic times in addition 
to increasing funding for NEA? I am particularly interested in job 
training initiatives and professional development opportunities that 
our committee should consider during the reauthorization of the 
Workforce Investment Act.
    Please send an electronic version of your written response to the 
questions to the Committee staff by close of business on Wednesday, 
April 8, 2009--the date on which the hearing record will close. If you 
have any questions, please do not hesitate to contact the Committee.
            Sincerely,
                                   George Miller, Chairman.
                                 ______
                                 

            Mr. Daly's Responses to Questions for the Record

    As a result of my life experiences and background, I am a strong 
supporter of the arts and have been a longtime advocate of arts 
education. My father is an artist and my mother is a poet. In addition 
to their inherent intellectual, spiritual and creative contributions 
and effects, the arts are clearly an economic engine that strengthens 
and revitalizes our communities. The multiplier effect of arts spending 
is impressive: every dollar in cultural spending returns nine in 
federal income taxes. And every National Endowment for the Arts (NEA) 
dollar leverages seven dollars from other sources. In my district, we 
have 2,670 arts-related businesses that employ 8,292 people. These 
businesses stimulate innovation and play a critical role in building 
and sustaining our economy: they employ a creative workforce, spend 
money locally, generate revenue for government, attract tourists and 
enrich our local culture.
    1. What can we do to support artists and workers employed in the 
creative industries during these difficult economic times in addition 
to increasing funding for NEA? I am particularly interested in job 
training initiatives and professional development opportunities that 
our committee should consider during the reauthorization of the 
Workforce Investment Act.
    Response: As I emphasized in my testimony before the Committee, the 
arts is an enormous creator of jobs for American citizens. From what I 
know of the Workforce Investment Act, the statute does recognize arts 
training as qualified job training. Given that, it seems to me that 
there are two distinct areas to consider as the Committee reauthorizes 
the Act.
    First, with respect to those already working in the arts who may 
lose their jobs in this economic downturn, I think it is essential that 
federal aid be available to those individuals. In some instances, those 
individuals may benefit from further arts training. In other instances, 
it may be necessary for those individuals to learn skills outside the 
arts to provide for themselves and their families. The Act should 
provide both options.
    Second, with regard to disadvantaged youth who receive training 
under the Act, I believe Congress should encourage training in the 
arts. Arts training for younger people can lead to good jobs, and 
America will continue to need those with creative talents as well as 
those who can work behind the scenes in our arts and entertainment 
industries. Many of these jobs require very specialized skills, and it 
is essential that we train the next generation if we are to maintain 
our preeminent position as a creator of arts and entertainment for the 
rest of the world.
                                 ______
                                 
                                     U.S. Congress,
                        2181 Rayburn House Office Building,
                                     Washington, DC, April 1, 2009.
Mr. Robert L. Lynch, President and CEO,
Americans for the Arts, Washington, DC.
    Dear Mr. Lynch: Thank you for testifying at the March 26, 2009 
hearing of the Committee on Education and Labor on ``The Economic and 
Employment Impact of the Arts and Music Industry.''
    Representative Jared Polis (D-CO), member of the Early Childhood, 
Elementary and Secondary Education Subcommittee, member of the Healthy 
Families and Communities Subcommittee and member of the Health, 
Employment, Labor and Pensions Subcommittee has asked that you respond 
in writing to the following question:
    As a result of my life experiences and background, I am a strong 
supporter of the arts and have been a longtime advocate of arts 
education. My father is an artist and my mother is a poet. In addition 
to their inherent intellectual, spiritual and creative contributions 
and effects, the arts are clearly an economic engine that strengthens 
and revitalizes our communities. The multiplier effect of arts spending 
is impressive: every dollar in cultural spending returns nine in 
federal income taxes. And every National Endowment for the Arts (NEA) 
dollar leverages seven dollars from other sources. In my district, we 
have 2,670 arts-related businesses that employ 8,292 people. These 
businesses stimulate innovation and play a critical role in building 
and sustaining our economy: they employ a creative workforce, spend 
money locally, generate revenue for government, attract tourists and 
enrich our local culture.
    1. What can we do to support artists and workers employed in the 
creative industries during these difficult economic times in addition 
to increasing funding for NEA? I am particularly interested in job 
training initiatives and professional development opportunities that 
our committee should consider during the reauthorization of the 
Workforce Investment Act.
    Please send an electronic version of your written response to the 
questions to the Committee staff by close of business on Wednesday, 
April 8, 2009--the date on which the hearing record will close. If you 
have any questions, please do not hesitate to contact the Committee.
            Sincerely,
                                   George Miller, Chairman.
                                 ______
                                 

           Mr. Lynch's Responses to Questions for the Record

    It was an honor to appear before you and your committee as a 
witness on March 26, 2009. As a representative of the non-profit arts 
community, I greatly appreciated the opportunity to share with you our 
perspective on the status of the arts workforce. I am very pleased that 
you have such a significant connection to the arts and appreciate your 
follow-up inquiry.
    Your question as to how the Congress can support artists and 
workers employed in the creative industries beyond the National 
Endowment for the Arts (NEA) is a key one to this growing workforce. As 
you know, the NEA provides grants to nonprofit arts organizations to 
produce and support artistic programs. However, the needs of the 
creative workforce, and of the small businesses that provide these 
jobs, extend beyond the support that the NEA can give.
    During the consideration of the economic recovery package, 
Americans for the Arts developed a number of policy recommendations for 
Congress (attached) that would provide assistance to the creative 
workforce. I'd like to highlight the following one in response to your 
question:
    Make Human Capital Investments in Arts Job Training The U.S. 
Department of Labor's Adult, Dislocated Worker and Youth Program is 
currently administered by the states to ``help up-skill workers and 
provide employment services and support that will increase worker 
employability and earning power.'' We support that effort with an 
interest in expanding the services available to workers in the creative 
sector and through arts institutions that can provide professional 
development training.
    Programs such as Gallery 37, managed by the Chicago Mayor's office 
but funded through the Workforce Investment Act, utilize the arts as an 
arena in which future workplace skills are taught by professional 
artists and acquired by the program recipients. Gallery 37 is an award-
winning public works program that has been replicated around the 
country. It is an example of a progressive way to utilize workforce 
funds for training new skills and providing immediate benefits to 
localities and downtowns as well.
    As the national workforce becomes more focused on innovation, 
employees with skills in creativity will become more in need. Federal 
labor programs that can adapt to this change in workforce skills will 
better assist the communities they serve. Future consideration of the 
Workforce Investment Act should direct state and local workforce 
investment boards to pursue guidance that results in creative workforce 
training programs like Gallery 37.
    I hope you will keep Americans for the Arts in mind as you gather 
information and consider policy solutions towards the creative 
industries. We are more than willing to help work on this. Thank you 
for your leadership on this issue.

                   Folk and Traditional Arts Summary

    The arts mean jobs and tremendous economic activity in America and 
must be part of our country's economic recovery. Nationally, 100,000 
nonprofit arts organizations are members of the business community--
employing people locally, purchasing goods and services within the 
community, and involved in the marketing and promotion of their cities 
and communities. Nonprofit arts organizations and their audiences 
generate $166.2 billion in economic activity every year, support 5.7 
million jobs, and return nearly $30 billion in government revenue every 
year--proving that the arts are an economic driver in their communities 
that support jobs and generate government revenue. Every $1 billion in 
spending by nonprofit arts and culture organizations--and their 
audiences--results in almost 70,000 fulltimeequivalent jobs.
    By investing in the arts, we're supporting an industry that is 
built on innovation and creativity, economic development, and the 
revitalization of America's communities and downtowns. When we increase 
investment in the arts, we are generating tax revenues, jobs, and a 
creativitybased 21st century competitive economy.
    With these facts in hand, Americans for the Arts calls on 
Presidentelect Obama and Congress to support the following nine federal 
programs and proposals in their consideration of an economic recovery 
package.
(1) Include Artists in Proposal for Unemployment & Healthcare Benefits 
        for PartTime Employees
    The creative economy relies heavily on professionals that make a 
living from nontraditional employment structures. Artists are 
disproportionately selfemployed, and many work multiple jobs in 
volatile, episodic patterns; the ability to have access to unemployment 
insurance and healthcare benefits would offer critical assistance to 
this population.
(2) Boost Arts Projects in Community Development Block Grants (CDBG)
    Provided by the U.S. Department of Housing & Urban Development 
(HUD) to mayors' community development offices, the CDBG program 
provides ``bricks & mortar'' funding for a variety of state and 
municipal projects and is a primary government source for local arts 
institutions of all disciplines. Further streamlining of the 
application process would allow grant applicants to work more 
effectively with their mayor's community development office to better 
prioritize cultural projects. We join with the U.S. Conference of 
Mayors in their call for $20 billion in CDBG funding and seek at least 
$2 billion in artsspecific projects to modernize, rehabilitate, and 
construct our nation's cultural facilities.
(3) Provide Economic Recovery Support to Federal Cultural Agencies
    Americans for the Arts calls for increasing FY 2010 annual support 
to the National Endowment for the Arts (NEA) to $200 million, a similar 
amount for the National Endowment for the Humanities, and IMLS to $269 
million. All three agencies should receive economic recovery emergency 
funding to increase current grantee projects.
    In terms of the economic recovery proposal, the NEA should be 
allocated at least $1 billion for formula grants, based on population, 
to be administered through its current Local Arts Agency program to 
designated local arts agencies. LAAs are a unit of city or county 
government or designated to operate on behalf of its local government 
as defined in federal statute. Grants of this kind would be for the 
purposes of producing cultural and artistic programming and public art 
initiatives in 2009. These grants awarded to LAAs would a) speedily 
disburse local funding to all the arts disciplines; b) employ artists 
and the cultural workforce and c) serve to increase access to the arts 
in order to leverage spending by audiences.
(4) Include Cultural Planning Through Economic Development 
        Administration (EDA)
    Through the U.S. Department of Commerce, the Economic Development 
Administration's Research, National, and Local Technical Assistance 
grant programs are essential to a community's thoughtful planning and 
economic development investment process. These programs should meet the 
increasing need for local cultural district planning and assisting 
municipalities with developing the creative economy in their 
communities.
(5) Increase Cultural Facilities Support in Rural Development Program 
        (USDA)
    Through the U.S. Department of Agriculture, the Housing and 
Community Facilities program funds the construction, rehabilitation, or 
acquisition of ``essential facilities'' which includes cultural 
facilities. Since its inception, about nine percent of the Community 
Facilities funding has been directed to education and cultural 
facilities--an amount that should be increased to address the 
infrastructure needs of these rural cultural communities.
(6) Link Transportation Enhancements (TE Program) With State Arts 
        Agencies
    The U.S. Department of Transportation's Transportation Enhancement 
program funds 12 general transportation enhancement activities 
including pedestrian and bicycle facilities, historic preservation, and 
public art projects. This program, administered by state transportation 
departments, should receive an increase in funding and all projects 
should be developed and implemented in coordination with the state arts 
agency.
(7) Create the Artist Corps
    PresidentElect Obama's proposal of an ``Artists Corps of young 
artists trained to work in lowincome schools and their communities'' is 
a proven strategy to provide jobs to artists seeking to share their 
skills, provide mentoring, and professional development to students and 
individuals seeking work in the creative economy. This proposal should 
be acted upon quickly to establish the Artists Corps as a national 
training initiative.
(8) Make Human Capital Investments in Arts Job Training
    The National Governor's Association (NGA) has proposed a $1.5 
billion increase to the U.S. Department of Labor's Adult, Dislocated 
Worker and Youth Programs and WagnerPeyser Act administered by the 
states to ``help upskill workers and provide employment services and 
supports that will increase worker employability and earning power.'' 
We support that effort with an interest in expanding the services 
available to workers in the creative sector and through arts 
institutions that can provide professional development training.
(9) Appoint a SeniorLevel Administration Official with Arts Portfolio
    The president should name a seniorlevel administration official in 
the Executive Office of the President to coordinate arts and cultural 
policy, guiding initiatives from federal agencies responsible for 
tourism, education, economic development, cultural exchange, 
intellectual property policy, broadband access, and other artsrelated 
areas. The U.S. Conference of Mayors and others have made similar 
proposals.
                                 ______
                                 
                                     U.S. Congress,
                        2181 Rayburn House Office Building,
                                     Washington, DC, April 1, 2009.
Mr. Michael Bahr, Education Director,
Utah Shakespearean Festival, Cedar City, UT.
    Dear Mr. Bahr: Thank you for testifying at the March 26, 2009 
hearing of the Committee on Education and Labor on ``The Economic and 
Employment Impact of the Arts and Music Industry.''
    Representative Jared Polis (D-CO), member of the Early Childhood, 
Elementary and Secondary Education Subcommittee, member of the Healthy 
Families and Communities Subcommittee and member of the Health, 
Employment, Labor and Pensions Subcommittee has asked that you respond 
in writing to the following question:
    As a result of my life experiences and background, I am a strong 
supporter of the arts and have been a longtime advocate of arts 
education. My father is an artist and my mother is a poet. In addition 
to their inherent intellectual, spiritual and creative contributions 
and effects, the arts are clearly an economic engine that strengthens 
and revitalizes our communities. The multiplier effect of arts spending 
is impressive: every dollar in cultural spending returns nine in 
federal income taxes. And every National Endowment for the Arts (NEA) 
dollar leverages seven dollars from other sources. In my district, we 
have 2,670 arts-related businesses that employ 8,292 people. These 
businesses stimulate innovation and play a critical role in building 
and sustaining our economy: they employ a creative workforce, spend 
money locally, generate revenue for government, attract tourists and 
enrich our local culture.
    1. What can we do to support artists and workers employed in the 
creative industries during these difficult economic times in addition 
to increasing funding for NEA? I am particularly interested in job 
training initiatives and professional development opportunities that 
our committee should consider during the reauthorization of the 
Workforce Investment Act.
    Please send an electronic version of your written response to the 
questions to the Committee staff by close of business on Wednesday, 
April 8, 2009--the date on which the hearing record will close. If you 
have any questions, please do not hesitate to contact the Committee.
            Sincerely,
                                   George Miller, Chairman.
                                 ______
                                 
    [Whereupon, at 11:40 a.m., the committee was adjourned.]

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
